APPENDIX

APPENDIX A
UNITED STATES
FOREIGN INTELLIGENCE SURVEILLANCE
COURT OF REVIEW WASHINGTON, D.C.
IN RE OPINIONS AND ORDERS OF THE FISC
CONTAINING NOVEL OR SIGNIFICANT
INTERPRETATIONS OF LAW
Docket No. Misc. 20-02
[Filed November 19, 2020]
OPINION AND ORDER
Earlier this year, this Court dismissed for lack of
jurisdiction a petition filed by a group oforganizations
who were seeking, based on an asserted First
Amendment right of public access, disclosure of
certain opinions and orders that were issued by the
United States Foreign Intelligence Surveillance
Court (FISC) and that contained redacted, non­
public material classified by the Executive Branch. In
re Opinions & Orders by the FISC Addressing Bulk
Collection of Data Under the Foreign Intelligence
Surveillance Act, 957 F.3d 1344 (FISA Ct. Rev. 2020)
(In re Opinions & Orders by the FISC on Bulk
Collection). Following our decision in that case, the
FISC, considering a separate motion that sought
disclosure of other FISC classified opinions and
orders but likewise was based on a First Amendment
right of access claim, dismissed the motion after
applying our reasoning in In re Opinions & Orders
by the FISC on Bulk Collection. See In re Opinions &
!.

la

Orders of this Court Containing Novel or Significant
Interpretations of Law, FISC Docket No. Misc. 16-01
(FISA
Ct.
Sept.
15,
2020),
available at
https://www.fisc.uscourts.gov/ public-filings/opinionand-order-8. This appeal followed.
Movant American Civil Liberties Union filed with
this Court a Petition for Review seeking to appeal the
FISC’s September 2020 dismissal decision or, in the
alternative, a Petition for a Writ of Mandamus
(Petition). In its accompanying Notice of Appeal, the
Movant, citing to In re Opinions & Orders by the FISC
on Bulk Collection, “recognize [d] that this Court has
previously determined that it does not have
jurisdiction to consider an appeal or petition for a
writ of mandamus filed by a movant claim in g a First
Amendment right of public access to the FISC’s legal
opinions.” Movant Notice of Appeal, filed Oct. 1 4,
2020.
On October 16, 2020, we ordered the Movant to file
a brief and show cause as to why this Court has the
authority to entertain the Movant’s Petition. The
Government also was provided the opportunity to file
a response, and both Parties timely filed their briefs.
The Movant now asks this Court to “clarify or
revisit” its earlier ruling in In re Opinions & Orders
by the FISC on Bulk Collection, or in the alternative,
to certify jurisdictional questions raised by the
Movant’s Petition to the Supreme Court of the United
States. Movant Brief at 2. The Movant acknowledges
that its position relies, among other things, on an
interpretation of the Foreign Intelligence Surveillance
Act that was rejected by this Court just over six
months ago in In re Opinions & Orders by the FISC
Id. at 3. The Government
on Bulk Collection.

2a

counters that our decision in that case controls
disposition of the Movant’s Petition, and the Petition
therefore should be dismissed for lack of jurisdiction.
After careful consideration of the Parties’ briefs,
we decline the Movant’s invitation to revisit our
recent decision. We conclude that In re Opinions &
Orders by the FISC on Bulk Collection applies to our
consideration of the Movant’s Petition, and we are
unpersuaded that the Movant has shown cause as to
why this Court has jurisdiction to consider its current
claims. In light of that conclusion, this case does not
present a question of law as to which instructions from
the Supreme Court are desired. 50 U.S.C. § 1803(k);
28 U.S.C. § 1254(2).
The September 15, 2020 decision of the FISC is
AFFIRMED,
and the Movant’s Petition is
DISMISSED.
So ORDERED this 19th day of November, 2020.
Is/ David B. Sentelle
Presiding Judge
United States Foreign
Intelligence Surveillance Court
of Review

3a

APPENDIX B
UNITED STATES
FOREIGN INTELLIGENCE SURVEILLANCE
COURT
WASHINGTON, D.C.
IN RE OPINIONS AND ORDERS OF THIS COURT
CONTAINING NOVEL OR SIGNIFICANT
INTERPRETATIONS OF LAW
Docket No. Misc. 16-01
[Filed September 15, 2020]
OPINION AND ORDER
Pending before the Court is a motion for the
release of court records that the American Civil
Liberties Union, the ACLU of the Nation’s Capital,
and the Media Freedom and Information Access Clinic
filed on October 19, 2016. The motion invokes Rule 62
of the United States Foreign Intelligence Surveillance
Court Rules of Procedure and the qualified First
Amendment right of access to compel the Court to
disclose classified opinions and orders that contain
novel or significant interpretations of law and were
issued between September 11, 2001, and June 2, 2015.
See ACLU’s Mot. at 1, https://www.fisc.uscourts.gov/
sites/defauJt/files/Misc%2016%2001%20Motion%20of
l/o20the%20ACLU%20for%20the%20Release%20of%
>20Court%20Records%20161019.pdf.
In 2013, these same movants filed a motion
arguing that both FISC Rule 62 and the qualified First
Amendment right of access authorized this Court to

4a

exercise jurisdiction over their request for the
disclosure of classified judicial opinions addressing
the legal basis for bulk collection. See Mot. of the
ACLU, the ACLU of the Nation’s Capital, & MFIAC
for the Release of Ct. Rs., Misc. No. 13-08 (Foreign
Intel. Surv. Ct. 2013), https:// www.fisc.uscourts.gov/
sites/default/files/Misc%2013-08%20Motion-2.pdf.
Four months ago, the United States Foreign
Intelligence Surveillance Court of Review dismissed
that motion in In re Opinions and Orders by the FISC
Addressing Bulk Collection of Data Under the
Foreign Intelligence Surveillance Act, 957 F.3d 1344
(Foreign Intel. Surv. Ct. of Review Apr. 24, 2020) (per
curiam). The FISCR held that it lacked jurisdiction
over the petition seeking appellate review of thenPresiding Judge Rosemary M. Collyer’s February 11,
2020, decision denying the motion. Id. at 1358.
This Court is now convinced that exercising
jurisdiction over the pending motion in this matter
would be inconsistent with the Foreign Intelligence
Surveillance Court of Review’s decision. The FISCR
determined that it lacked statutory subject-matter
jurisdiction because Congress did not empower the
federal courts established under FISA to consider
constitutional claims, a freestanding motion asserting
a qualified First Amendment right of access did not
fall within any of the FISCR’s jurisdictional categories
enumerated in the statute, and the movants were not
among the parties authorized by the statute to seek
FISCR review.
Id. at 1350-51. Noting its
“significantly limited powers carefully delineated by
Congress,” the FISCR also declined to rely on the
doctrine of ancillary jurisdiction
to exercise
discretionary authority over the petition. Id. at 1356—
57. It explained that such authority must be exercised

5a

with restraint, discretion, and great caution, id. at
1356, n.69 (citing Ex Parte Burr, 22 U.S. 529, 531
(1824)), and that the movants had not been
involuntarily haled into court, did not seek to assert
rights inan ongoing action, did not establish a factual
connection to the classified material, and did not
present circumstances warranting the exercise of the
FISCR’s inherent judicial power to enforce its
mandates and orders or protect the integrity of its
proceedings and processes. Id. at 1356. In addition,
because the “crux” of the movants’ claim to
disclosure “[lay] within the Executive’s clear authority
to determine what material should remain
classified,” the FISCR concluded that “respect for the
separation of powers dictates that we dismiss the
Petition for lack of jurisdiction, as we have no
business deciding the merits of the Movants’
constitutional claim.” Id. at 1357 (internal quotation
marks omitted).
Applying the FISCR’s reasoning to whether this
lower Court has jurisdiction over the pending motion
leads to the same result. Like the FISCR, the FISC is
not empowered by Congress to consider constitutional
claims
generally,
First
Amendment
claims
specifically, or freestanding motions filed by persons
who are not authorized by FISA to invoke this
Court’s jurisdiction. See id. at 1355 (stating that
“specialized courts like the FISC” are not “empowered
to consider claims arising under the First
Amendment to the Constitution”), 1350—51; 50 U.S.C.
§§ 1801-1885c. And because all of the above-described
reasons why the FISCR found it unwarranted to
exercise ancillary jurisdiction apply to the pending
motion, the FISC is foreclosed from doing so here.

6a

Accordingly, it is ORDERED that the Motion of
the American Civil Liberties Union for the Release of
Court Records is DISMISSED for lack of jurisdiction.
SO ORDERED this 15th day of September, 2020.
/s/ James E. Boasberg
Presiding Judge, United States
Foreign Intelligence Surveillance
Court

7a

APPENDIX C
UNITED STATES
FOREIGN INTELLIGENCE SURVEILLANCE
COURT
WASHINGTON, D.C.
IN RE OPINIONS AND ORDERS OF THIS COURT
CONTAINING NOVEL OR SIGNIFICANT
INTERPRETATIONS OF LAW
Docket No. Misc. 16-01
[Filed October 19, 2016]
Motion of the American Civil Liberties Union
for the Release of Court Records
PRELIMINARY STATEMENT
Under the authority of the First Amendment and
pursuant to Rule 62 of this Court’s Rules of Procedure,
the American Civil Liberties Union (the “ACLU” or
“Movant”) respectfully moves the Foreign Intelligence
Surveillance Court (“FISC”) to unseal its opinions and
orders containing novel or significant interpretations
of law issued between September 11, 2001, and the
passage of the USA FREEDOM Act on June 2, 2015.1
Based on public disclosures, it is clear that over the
past fifteen years the FISC has developed an
extensive body of law—one that defines the reach of
the government’s surveillance powers and broadly
1 Uniting and Strengthening America by Fulfilling Rights and
Ensuring Effective Discipline Over Monitoring Act (“USA
FREEDOM Act”), Pub. L. No. 114-23, 129 Stat. 267 (2015).

8a

affects the privacy interests of Americans. Yet, even
today, many of the FISC’s significant opinions and
orders have not been disclosed to the public. These
rulings appear to address a range of novel surveillance
activities, including the government’s bulk searches of
email received by Yahoo! customers; the government’s
use of so-called “Network Investigative Techniques”
(“NITs”), more commonly known as “malware”; and
the government’s use of “cybersignatures” as a basis
for surveillance conducted pursuant to the Foreign
Intelligence Surveillance Act (“FISA”).2 The Court’s
undisclosed rulings also appear to address the
lawfulness of surveillance conducted under Section
702 of FISA—a controversial authority scheduled to
expire in December 2017. The significant legal
interpretations of this Court are subject to the public’s
First Amendment right of access, and no proper basis
exists to keep that legal analysis secret.
Congress created this Court in 1978 to “hear
applications for and grant orders approving electronic
surveillance” within the United States of foreign
powers and their agents. FISA, Pub. L. No. 95-511,
§ 103, 92 Stat. 1783 (1978) (codified at 50 U.S.C.
§ 1803). Since the disclosures that began in June
2013, however, it has become increasingly apparent
that the Court does more than review individualized
surveillance applications on a case-by-case basis.
Rather, the Court’s role expanded over the past fifteen
years to include programmatic approval and review of
government surveillance activities that affect
countless Americans.
2 In the attached Appendix, Movant has provided a nonexhaustive list of FISC rulings that it believes fall within the
scope of this motion and have not yet been publicly released.

9a

The Court’s new role was accompanied by a
growing body of secret law. In at least some instances,
the Court’s interpretations departed significantly
from the public understanding of the laws at issue.
See, e.g., ACLU v. Clapper, 785 F.3d 787, 812 (2015)
(describing the “expansive concept of ‘relevance’”
adopted by this Court in interpreting Section 215).
During the past three years, the Court has responded
by making more of its precedent available to the
public, including in response to a previous motion filed
by the ACLU. See In re Orders of this Court
Interpreting Section 215 of the PATRIOT Act (“In re
Section 215 Orders”), No. Misc. 13-02, 2013 WL
5460064, at *1 (FISC Sept. 13, 2013); Opinion and
Order Directing Declassification of Redacted Opinion
(“Declassification Order”), In re Section 215 Orders,
13-02
(FISC
Aug. 7,
2014),
Misc.
No.
Congress, too,
has
http://1 .usa. gov/ly ekcfM.
responded by directing the government to publicly
release significant opinions of this Court to the
greatest extent practicable, as part of the USA
FREEDOM Act. See 50 U.S.C. § 1872. However, the
government has taken the position that its statutory
disclosure obligation does not apply to opinions that
predate the Act’s passage on June 2, 2015.3 As a
result, a number of significant opinions and orders of
this Court issued prior to June 2015 remain secret.

3 See Gov’t Mem., Elec. Frontier Found, v. DOJ, No. 14-cv-00760
(D.D.C. Feb. 5, 2016) (ECF No. 28). But see PI. Mot. for Partial
Summ. J. & Opp., Elec. Frontier Found, v. DOJ, No. 14-cv-00760
(N.D. Cal. Oct. 13, 2016) (ECF No. 32); Sen. Ron Wyden, Press
Statement (Oct. 7,2016) (“The USA Freedom Act requires the
executive branch to declassify Foreign Intelligence Surveillance
Court opinions that involve novel interpretations of laws or the
Constitution.”).

10a

Through this Motion, the ACLU seeks access to
these opinions and orders for two reasons. First, some
of the opinions and orders pertain to surveillance
programs that are already the subject of considerable
public debate—including the government’s PRISM
and Upstream collection programs conducted
pursuant to Section 702 of FISA. The public is entitled
under the First Amendment to access the legal
interpretations that define the limits of those
programs. Second, and more broadly, some of the
opinions and orders relate to novel legal questions the
Court addressed as the government’s surveillance
activities expanded after September 11, 2001, such as
the use of court-authorized malware and the extension
of FISA to cybersecurity activities. These rulings are
necessary to inform the public about the scope of the
government’s surveillance powers today.
The ACLU’s request for access to opinions and
orders of this Court seeks to vindicate the public’s
overriding interest in understanding how federal
statutes are being construed and implemented, and
how constitutional protections for personal privacy
and expressive and associational activities are being
enforced. The First Amendment guarantees the public
a qualified right of access to those opinions because
judicial opinions interpreting constitutional and
statutory limits on governmental authorities—
including those relevant to foreign-intelligence
surveillance—have regularly been available for
inspection by the public, and because their release is
manifestly fundamental in a democracy committed to
the rule of law. Public disclosure serves to improve the
functioning of the Court itself, to enhance its
perceived fairness and independence, and to educate
citizens about the Court’s role in ensuring the

11a

integrity of the FISA system. This First Amendment
guarantee of public access may be overcome only if the
government is able to demonstrate a substantial
probability of harm to a compelling interest and the
absence of any alternative means to protect that
interest. Any limits on the public’s right of access must
then be narrowly tailored and demonstrably effective
in avoiding that harm.
The ACLU respectfully asks this Court to order the
government to promptly process and prepare for
publication opinions and orders of this Court
containing novel or significant interpretations of law,
including but not limited to those identified in the
Appendix.4 Because the opinions are of critical
importance to the ongoing public debate about the
legitimacy and wisdom of the government’s
surveillance activities, the ACLU respectfully
requests that the Court order the publication of the
opinions as quickly as possible, with only those
redactions justified under the stringent First
Amendment standard.
4 Movant notes that, since 2004, the government has been
required to identify, summarize, and provide to the Intelligence
and Judiciary Committees of both houses of Congress
“significant” legal interpretations of FISA. 50 U.S.C. §
1871(a)(4)—(5); see also id. § 1871(c). Similarly, for FISC opinions
related to §' 702 of FISA, the executive branch is required to
categorize the Court’s opinions as containing a significant legal
interpretation or not. 50 U.S.C. § 1881f(b)(l)(D) (requiring the
government to provide copies to Congress of any FISC opinion
“that contains a significant legal interpretation of the provisions
of [Section 702 of FISA]”).
Where there is a question as to whether an opinion or order
constitutes a significant interpretation of law, Movant requests
that the Court make a determination as to the ruling’s
significance.

12a

FACTUAL BACKGROUND
In June 2013, various press outlets disclosed the
existence of previously unknown government
surveillance programs, including the National
Security Agency’s bulk collection of telephone
metadata pursuant to 50 U.S.C. § 1861, and the
PRISM and Upstream programs operated under
Section 702 of FISA, which the government uses to
seize and search vast quantities of Internet
communications.5 These news stories and subsequent
reporting and disclosures alerted the public to the
existence of a growing body of important FISC rulings
on matters of significant public interest. While the
FISC was created to hear individualized surveillance
demands, the orders and opinions that were published
with the leaked documents revealed that the FISC
was also authorizing and overseeing several broad
programs of surveillance, relying on a body of its own
opinions interpreting statutory and constitutional
law. Because FISC opinions were rarely published,
the disclosures made the public aware that it was
being (and had for some time been) denied access to a
growing body of secret law.
To address the public’s concerns that developed in
the wake of these disclosures about the legal
foundations of the government’s various surveillance
programs, the government began to declassify and
release significant information related to its

5 See, e.g., Glenn Greenwald, NSA Collecting Phone Records of
Millions of Verizon Customers Daily, Guardian, June 6, 2013,
http://gu.eom/p/3gc62; Barton Gellman & Laura Poitras, U.S.,
British Intelligence Mining Data from Nine U.S. Internet
Companies in BroadSecret Program, Wash. Post, June 7, 2013,
http://wpo.st/eW7Yl.

13a

surveillance activities. For example, in the months
immediately following the initial news stories about
the government’s bulk call-records program, the
government released a white paper providing more
details about the program, its purported value, and its
legal underpinnings.6 And the Office of the Director of
National Intelligence (“ODNI”) began a marked
increase in its communications with the public about
the government’s national-security surveillance
programs.7
This Court also grasped the immense public
interest surrounding the government’s surveillance
activities and the need for public access to its opinions
and orders. After the initial disclosures in June 2013,
this Court began to makes more of its opinions and
orders available to the public as a matter of course. 8
In In re Section 215 Orders, the Court acknowledged
the important values served by the disclosure of these
opinions. It noted that previous public disclosures had
“engendered considerable public interest and debate”
and that further “[publication of FISC opinions . . .
would contribute to that debate.”9 The Court also
underscored the assertions by legislators of the “value

6 Administration White Paper: Bulk Collection of Telephony
Metadata Under Section 215 ofthe USA PATRIOT Act (Aug. 9,
2013), http://big.assets.huffingtonpost.com/Section215.pdf.
7 As one example of its increased outreach efforts, the ODNI
began utilizing social media toaddress these important matters
of public concern and to release declassified documents, including
opinions of this Court, to the public. See ODNI, IC on the Record,
https://icontherecord.tumblr.com/.
8 See generally Public
uscourts.gov/public-filings.

Filings-FISC,

http://www.fisc.

9 In re Section 215 Orders, 2013 WL 5460064, at *7.

14a

of public information and debate in representing their
constituents and discharging their legislative
responsibilities,” and affirmed that “[publication
would also assure citizens of the integrity of this
Court’s proceedings.”10 Likely for the same reason,
the Court’s then-Presiding Judge published his
correspondence with Congress explaining the FISC’s
operating procedures and detailing certain statistics
concerning the Court’s approval of government
applications.11
The intense public interest triggered by the June
2013 surveillance disclosures has only grown in the
ensuing years. For almost three years, the American
people have taken part in a wide-ranging public
debate about the scope, interpretations, and
appropriate bounds of our nation’s surveillance laws.
New details have continued to emerge about the
government’s programs.12 Executive-branch bodies
have engaged in significant public oversight of
surveillance programs, conducting hearings with
government and outside experts, and issuing reports
10 Id.; see Mem. Op., In re Application of the FBI for an Order
Requiring the Production of Tangible Things from [Redacted],
No. BR 13-158 (FISC Oct. 11, 2013), http://bit.ly/2e2yBly; In re
Application of the FBI for an Order Requiring the Production of
Tangible Things from [Redacted], No. BR 13-109, 2013 WL
5741573, at *1 (FISC Aug. 29, 2013).
11 See, e.g., Letter from Hon. Reggie B. Walton, Presiding Judge,
FISC, to Hon. Patrick J. Leahy, Chairman, Comm, on the
Judiciary (Oct. 11, 2013), http://bit.ly/2e2H8BH.
12 See, e.g., Charlie Savage et al., Hunting for Hackers, N.S.A.
Secretly Expands Internet Spying at U.S. Border, N.Y. Times,
June 4, 2015, http://nyti.ms/lGmFXE0 (reporting that in 2009
the NSA began conducting warrantless searches using patterns
associated with computer intrusions—he., “cybersignatures”—
and Internet protocol addresses as selectors).

15a

on several programs that assess their legality and
make recommendations on areas of concern.13 And
Congress has actively engaged on the issue, including
by passing legislation to end the government’s bulkcollection activities and to require the publication of
the very sorts of significant legal opinions sought
through the ACLU’s Motion.14
Yet many of this Court’s significant opinions and
orders—some of which have been explicitly referenced
or described by the Court—have never been released
to the public. For example, news reports published
earlier this month revealed the existence of a
previously undisclosed order from this Court
requiring Yahoo! to scan, in real time, all incoming
email traffic for a particular computer “signature.”15
To comply, Yahoo! reportedly developed a custom
scanning system and searched hundreds of millions of
emails, storing and making available to the FBI copies
of any emails containing the signature(s) specified by
the government.16 The revelation of Yahoo!’s bulk
email searching has drawn public alarm. Other major
email providers, including Google and Microsoft,
13 See, e.g., Privacy & Civil Liberties Oversight Bd. (“PCLOB”),
Report on the Telephone Records Program Conducted under
Section 215 (2014), http://bit.ly/lSRiPke; President’s Review Grp.
on Intelligence & Commc’ns Techs., Liberty and Security in a
Changing World: Report and Recommendations (2013),
http://l.usa.gov/lcBctOk.
USA FREEDOM Act §§ 103, 201, 501; id. § 402.
15 Joseph Menn, Exclusive - Yahoo Secretly Scanned Customer
Emails for U.S. Intelligence Sources, Reuters (Oct. 4, 2016),
http://yhoo.it/2cQh5vB; Charlie Savage & Nicole Perlroth, Yahoo
Said to Have Aided U.S. Email Surveillance by Adapting Spam
Filter, N.Y. Times (Oct. 5,2016), http://nyti.ms/2dFsC0q.
16 Menn, supra note 15; Savage & Perlroth, supra note 15.

16a

quickly moved to reassure their users that they had
not engaged in similar surveillance.17 Senator Ron
Wyden expressed dismay and called on the executive
branch to notify the public of any substantial changes
to its surveillance authorities, while Representative
Ted Lieu challenged the program’s constitutionality.18
Yet the public still does not know the legal basis for
the Yahoo! order.
As the revelation of the Yahoo! order underscores,
an unknown number of legal opinions and orders
assessing the constitutionality of and statutory basis
for the government’s surveillance activities remain
hidden from the public. Based on official disclosures
and media reports, that body of law appears to
encompass, among other things: the government’s use
of malware, or NITs, in foreign-intelligence
investigations, see Appendix, No. 2; the government’s
use of FISA to compel technology companies to
weaken or circumvent encryption protocols, see id. No.
3; the government’s use of FISA to compel disclosure
of source code from technology companies, see id. No.
4; the government’s use of “cybersignatures” as a basis
for FISA surveillance, see id. No. 5; the government’s
use of “stingrays” and other cell-site simulator
technology in foreign- intelligence investigations, see
id. No. 7; and the CIA’s and FBI’s bulk collection of
Americans’ financial records, see id. No. 11. While
Movant has identified many undisclosed opinions
based on existing public information, there are surely
additional rulings of this Court that should likewise
17 Menn, supra note 15.
18 Cyrus Farivar, Yahoo’s CISO Resigned in 2015 over Secret Email Search Tool Ordered by Feds, Ars Technica, Oct. 4, 2016,
http://bit.lv/2dHtyhQ.

17a

be disclosed pursuant to the public’s First Amendment
right of access.19
Movant, through this motion, seeks the public
release of those controlling legal interpretations.
JURISDICTION
As a federal court established by Congress under
Article III, this Court possesses inherent powers,
including “supervisory power over its own records and
files.” Nixon v. Warner Commons, Inc., 435 U.S. 589,
598 (1978); accord Chambers v. NASCO, Inc., 501 U.S.
32, 43 (1991) (“It has long been understood that
[c]ertain implied powers must necessarily result to
our Courts of justice from the nature of their
institution.”). As this Court has previously
determined, the FISC therefore has “jurisdiction in
the first instance to adjudicate a claim of right to the
court’s very own records and files.” In re Motion for
Release of Court Records, 526 F. Supp. 2d 484, 487
(FISC 2007).
ARGUMENT
I.

MOVANT HAS STANDING TO BRING
THIS PUBLIC-ACCESS MOTION.

To demonstrate Article III standing, a party
seeking judicial action must show “(1) that it has
suffered an ‘injury in fact’; (2) that the injury is caused
by or fairly traceable to the challenged actions of the
19 By one estimate, there are at least 25 to 30 significant FISC
opinions and orders issued between mid-2003 and mid-2013 that
remain sealed, and several more that were issued in the two
years prior to the passage of the USA FREEDOM Act. See
Elizabeth Goitein, Brennan Ctr. for Justice, The New Era of
Secret Law 60-61 (2016), http://bit.ly/2eNep2g.

18a

defendant; and (3) that it is likely that the injury will
be redressed by a favorable decision.” Ethyl Corp. v.
EPA, 306 F.3d 1144, 1147 (D.C. Cir. 2002) (citing
Lujan u. Defenders of Wildlife, 504 U.S. 555, 560-61
(1992)). As the Court found when addressing the
ACLU’s 2013 motion, each element is met here. See In
re Section 215 Orders, 2013 WL 5460064, at *2-4.
The ACLU’s injury here—a denial of access to
court opinions—is concrete and particularized. See
Globe Newspaper Co. u. Superior Court for Cty. of
Norfolk, A51 U.S. 596 (1982); Richmond Newspapers
Inc. v. Virginia, 448 U.S. 555, 576 (1980); N.Y. Civil
Liberties Union v. N.Y.C. Transit Auth. (“NYCTA”),
684 F.3d 286, 294—95 (2d Cir. 2011); In re Wash. Post,
807 F.2d 383, 388 n.4 (4th Cir. 1986). The ACLU
actively participates in the legislative and public
debates about the proper scope of the government’s
surveillance authorities, including the lawfulness of
Section
702
surveillance,
the
government’s
deployment of malware, and the meaning of FISA’s
provisions.20 And plainly, the ACLU’s injury is both
caused by the denial of public access to the opinions
and orders sought here, see Valley Forge Christian
Coll. v. Ams. United for Separation of Church & State,
454 U.S. 464, 472 (1982), and would be redressed by
the requested relief, see Town of Barnstable v. FAA,
659 F.3d 28, 31 (D.C. Cir. 2011).

20 See, e.g., Submission of ACLU Deputy Legal Director Jameel
Jaffer, PCLOB PublicHearing on Section 702 of FISA (Mar. 19,
2014), http://bit.ly/2djfoqM; Joe Uchill, ACLUQuestions How Tor
Email Users Got FBI-Deployed Malware, Hill, Sept. 6, 2016,
http://bit.ly/2cIZ82T.

19a

II.

THE FIRST AMENDMENT REQUIRES
THE RELEASE OF THIS COURT’S
OPINIONS AND ORDERS CONTAINING
NOVEL OR SIGNIFICANT
INTERPRETATIONS OF LAW.
A. The First Amendment Right of Access
Attaches to Judicial Opinions,
Including the Opinions of this Court
Concerning Novel or Significant
Interpretations of Law.

That the judicial process should be as open to, the
public as possible is a principle enshrined in both the
Constitution and the common law. See Richmond
Newspapers, 448 U.S. at 564-73; Lugosch v. Pyramid
Co. of Onondaga, 435 F.3d 110, 119 (2d Cir. 2006)
(“The common law right of public access to judicial
documents is firmly rooted in our nation’s history.”);
cf. Letter from James Madison to W.T. Barry (Aug. 4,
1822), in 9 Writings of James Madison at 103 (G. Hunt
ed. 1910) (“A popular Government, without popular
information, or the means of acquiring it, is but a
Prologue to a Farce or a Tragedy; or, perhaps both.”).
Under the Supreme Court’s prevailing “experience
and logic” test, the First Amendment right of public
access attaches to judicial proceedings and records
where (a) the type of judicial process or record sought
has historically been available to the public, and (b)
public access plays a “significant positive role” in the
functioning of the process itself. Press-Enter. Co. v.
Superior Court (“Press-Enter. IF), 478 U.S. 1, 9, 11
(1986); see Globe Newspaper, 457 U.S. at 605-07;
Wash. Post v. Robinson, 935 F.2d 282, 287—92 (D.C.
Cir. 1991). Proceedings and records to which the right
of access attaches are presumptively open to the
public and may be closed only where there is a
20a

substantial probability of harm to a compelling
government interest, and where no alternative to a
narrow limitation of access can effectively protect
against that harm. NYCTA, 684 F.3d at 296. In other
words, the right of access is qualified but may not be
denied without “specific, on the record findings” that
“closure is essential to preserve higher values and is
narrowly tailored to serve that interest.” Press-Enter.
II, 478 U.S. at 13-14 (quoting Press-Enter. Co. v.
Superior Court (“Press-Enter. F), 464 U.S. 501, 510
(1984)).
Here, there is a nearly unbroken tradition of public
access to judicial rulings and opinions interpreting the
Constitution and our laws. Moreover, public access to
such rulings allows the public to function as an
essential check on the government and improves
judicial decisionmaking. Those interests are
particularly acute in the context of this Court’s
opinions interpreting the reach and constitutionality
of the government’s surveillance authorities. Access
would enhance the functioning of this Court and the
FISA system by facilitating effective public oversight;
increasing the legitimacy and independence of this
Court; subjecting this Court’s legal opinions to
scrutiny within our common-law system; and
permitting Congress, subject-matter experts, and the
broader public to evaluate this Court’s legal
interpretations as they consider changes to the law.
For these reasons, and as explained more fully below,
the constitutional right of access extends to the
opinions and orders of this Court concerning novel or
significant interpretations of law.

21a

1. “Experience”
Not only is there a nearly unbroken tradition of
public access to judicial rulings and opinions
interpreting the Constitution and the laws governing
the American people, but Congress has recently
reaffirmed that tradition with respect to this very
Court. See USA FREEDOM Act § 402 (codified at 50
U.S.C. § 1872) (requiring decisions, orders, and
opinions of the FISC containing “significant
construction [s] or interpretation [s] of any provision of
law” be made “publicly available to the greatest extent
practicable”).
No type of judicial record enjoys a more
uninterrupted history of openness than judicial
opinions. As explained by the Third Circuit:
As ours is a common-law system based
on the “directive force” of precedents, its
effective and efficient functioning
demands wide dissemination of judicial
Even that part of the law
decisions
which consists of codified statutes is
incomplete without the accompanying
body of judicial decisions construing the
statutes. Accordingly, under our system
of jurisprudence the judiciary has the
duty of publishing and disseminating its
decisions.
Lowenschuss v. W. Publ’g Co., 542 F.2d 180, 185 (3d
Cir. 1976) (quoting Benjamin N. Cardozo, The Nature
of the Judicial Process 20, 21—22 (1963)); see Scheiner
v. Wallace, No. 93-cv-0062, 1996 WL 633226, at *1
(S.D.N.Y. Oct. 31, 1996) (“The public interest in an
accountable judiciary generally demands that the
reasons for a judgment be exposed to public scrutiny.”

22a

(citing United States v. Amodeo, 71 F.3d 1044, 104849 (2d Cir. 1995))).
Dissemination of judicial opinions is necessary
both for the public to understand what the law is and
to preserve the legitimacy of the judicial process. See
U.S. Bancorp Mortg. Co. u. Bonner Mall P’ship, 513
U.S. 18, 26 (1994) (“[Jjudicial precedents are valuable
to the legal community as a whole. They are not
merely the property of private litigants.”); accord
Lowenschuss, 542 F.2d at 185; see also Union Oil Co.
v. Leavell, 220 F.3d 562, 568 (7th Cir. 2000)
(Easterbrook, J.) (“What happens in the halls of
government is presumptively public business. Judges
deliberate in private but issue public decisions after
public arguments based on public records. The
political branches of government claim legitimacy by
election, judges by reason. Any step that withdraws
an element of the judicial process from public view
makes the ensuing decision look more like fiat, which
requires compelling justification.”). Accordingly,
appellate courts have recognized that public access to
opinions is protected by the First Amendment.
Company Doe v. Public Citizen, 749 F.3d 246, 267—68
(4th Cir. 2014) (finding that “it would be anomalous”
for the First Amendment to apply to some judicial
records but not to “the court’s opinion itself’); United
States v. Mentzos, 462 F.3d 830, 843 n.4 (8th Cir. 2006)
(denying motion to file opinion under seal “because the
decisions of the court are a matter of public record”);
Union Oil, 220 F.3d at 568 (“[I]t should go without
saying that the judge’s opinions and orders belong in
the public domain.”).
Given this history, courts have customarily
disclosed opinions dealing with the government’s
authority to conduct investigations and gather
23a

information about individuals, particularly U.S.
citizens. For example, the First Amendment right of
access has been held to apply to judicial opinions
construing the government’s search and seizure
powers. See In re Application of N. Y. Times Co. for
Access to Certain Sealed Court Records, 585 F. Supp.
2d 83, 88 (D.D.C. 2008). And federal courts have
routinely published their opinions interpreting the
scope and constitutionality of intelligence collection
permitted under FISA and related authorities—the
very type of opinions the ACLU seeks here. See, e.g.,
United States u. U.S. Dist. Court for the E. Dist. of
Mich.,
407
U.S.
297
(1972)
(considering
constitutionality of warrantless- wiretapping program
conducted by the government to “protect the national
security”); United States u. Duggan, 743 F.2d 59, 72—
74, 77 (2d Cir. 1984) (analyzing FISA’s original
“purpose” requirement, and holding that “FISA does
not violate the probable cause requirement of the
Fourth Amendment”); Jewel u. NSA, 673 F.3d 902,
905 (9th Cir. 2011) (reversing dismissal of lawsuit
challenging “widespread warrantless eavesdropping
in the United States”); In re Application for Pen
Register & Trap/Trace Device with Cell Site Location
Auth. (“In re PR/TT with CSLF), 396 F. Supp. 2d 747,
748-49 (S.D. Tex. 2005) (refusing government request
to seal opinion “because it concerns a matter of
statutory interpretation” and the issue explored “has
serious implications for the balance between privacy
and law enforcement, and is a matter of first
impression”).
Critically, Congress has made the judgment that
significant legal opinions and orders of this Court do
not fall outside our long tradition of judicial
transparency. See USA FREEDOM Act § 402.

24a

Recognizing the importance of the FISC’s
jurisprudence, Congress has explicitly required this
Court’s opinions and orders involving “significant
construction [s] or interpretation [s] of any provision of
law” be made “publicly available to the greatest extent
practicable.” 50 U.S.C. § 1872(a); see also id. § 1872(b)
(stating that redacted versions of opinions and orders
may meet the statutory requirement). Congress set a
high bar for withholding such opinions and orders,
and even where they can properly be withheld, the
Attorney General must publicly release an
unclassified statement summarizing their contents.
Id. § 1872(c) (indicating non-disclosure is appropriate
only where “necessary to protect the national security
of the United States” and outlining Attorney General’s
obligations when opinions and orders are withheld).
That until recently FISC opinions were ordinarily
sealed is of no moment to the First Amendment’s
“experience” test. The Supreme Court has instructed
that the experience prong of its two-part test “does not
look to the particular practice of any one jurisdiction,
but instead ‘to the experience in that type or kind of
hearing throughout the United States . . . .’” El Vocero
de P.R. v. Puerto Rico, 508 U.S. 147, 150 (1993) (per
curiam) (quoting Riuera-Puig v. Garcia- Rosario, 983
F.2d 311, 323 (1st Cir. 1992)). In other words, the
proper focus of the “experience” analysis is the type of
governmental process or record to which a petitioner
seeks access, not the past practice of the specific forum
in which such access is being sought. See, e.g., NYCTA,
684 F.3d at 301 (rejecting view that “Richmond
Newspapers test looks to the formal description of the
forum”); Hartford Courant Co. v. Pellegrino, 380 F.3d
83, 94 (2d Cir. 2004) (examining First Amendment
right of access to court “docket sheets and their

25a

historical counterparts,” beginning with early English
courts); In re Bos. Herald, Inc., 321 F.3d 174, 184 (1st
Cir. 2003) (experience test includes examination of
“analogous proceedings and documents”).
In assessing how the past experience of access
applies to a new forum, it is inappropriate to analyze
only the history of that forum itself. Because there will
never be a tradition of public access in new forums,
this approach would permit Congress to circumvent
the constitutional right of access altogether—even as
to, say, criminal trials—simply by providing that such
trials henceforth be heard in a newly created forum.
See, e.g., NYCTA, 684 F.3d at 299 (“Immunizing
government proceedings from public scrutiny by
placing them in institutions the Framers could not
have imagined. . . would make avoidance of
constitutional protections all too easy.”); In re Copley
Press, Inc., 518 F.3d 1022, 1027 (9th Cir. 2008). The
proper approach, therefore, is to examine whether the
type of proceeding or record at issue—here, judicial
and
meaning
the
interpreting
opinions
constitutionality of public statutes—has historically
been open or available to the public. See, e.g., NYCTA,
684 F.3d at 299.
2. “Logic”
Just as fundamentally, public access to the
opinions of this Court is important to the functioning
of both the law in general and the FISA system in
particular.
The “significant positive role” of public judicial
decisionmaking in a democracy is so essential that it
is hardly ever questioned. Courts have repeatedly
recognized that public access to judicial opinions
serves a vital function:

26a

The decisions and opinions of the justices
are the authorized expositions and
interpretations of the laws, which are
binding upon all the citizens. They
declare the unwritten law, and construe
and declare the meaning of the statutes.
Every citizen is presumed to know the
law thus declared, and it needs no
argument to show that justice requires
that all should have free access to the
opinions, and that it is against sound
public policy to prevent this, or to
suppress and keep from the earliest
knowledge of the public the statutes, or
the decisions and opinions of the justices.
Such opinions stand, upon principle, on
substantially the same footing as the
statutes enacted by the legislature. It can
hardly be contended that it would be
within the constitutional power of the
legislature to enact that the statutes and
opinions should not be made known to
the public. The policy of the state always
has been that the opinions of the justices,
after they are delivered, belong to the
public.
Nash v. Lathrop, 142 Mass. 29, 35-36 (1886)
(emphasis added) (cited by Banks u. Manchester, 128
U.S. 244, 253-54 (1888)); see also Lowenschuss, 542
F.2d at 185. The importance of public access to judicial
opinions flows from two bedrock principles: (1) the
public’s right to know what the law is, as a condition
of democratic governance; and (2) the founding
recognition that, in our political system, it is
“emphatically the province and duty of the judicial
department to say what the law is.” Marbury v.

27a

Madison, 5 U.S. (1 Cranch) 137, 177 (1803). Because
courts determine what the law means—and therefore
what the law is—the societal need for access to judicial
opinions is paramount.
The value in making judicial opinions available to
the public only increases where, as here, the opinions
concern both the power of the executive branch and
the constitutional rights of citizens. See FTC v.
Standard Fin. Mgmt. Corp., 830 F.2d 404, 410 (1st
Cir. 1987) (access to court files “accentuated” where
“the public’s right to know what the executive branch
is about coalesces with the concomitant right of the
citizenry to appraise the judicial branch”); In re
PR/TT with CSLI, 396 F. Supp. 2d at 748-49
(refusing government request to seal order that “has
serious implications for the balance between privacy
and law enforcement”).
This principle applies with equal force in the
context of national security, where the courts
routinely recognize and give effect to the public’s right
of access to judicial opinions and orders. See, e.g.,
United States v. Aref, 533 F.3d 72, 82—83 (2d Cir.
2008); In re Wash. Post, 807 F.2d at 393; United States
v. Rosen, 487 F. Supp. 2d 703, 710, 716-17 (E.D. Va.
2007). In fact, where matters of national security are
at stake, the role of public evaluation of judicial
decisions takes on an even weightier role. See, e.g., In
re Wash. Post, 807 F.2d at 393; United States v.
Ressam, 221 F. Supp. 2d 1252, 1262 (W.D. Wash.
2002); see also N.Y. Times Co. v. United States, 403
U.S. 713, 719 (1971) (Black, J., concurring) (stating
that “fully aware of . . . the need to defend a new
nation,” the Framers wrote the First Amendment “to
give this new society strength and security”); Det. Free
Press v. Ashcroft, 303 F.3d 681, 709-10 (6th Cir. 2002)
28 a

(finding invocation of non-specific “national security”
concerns insufficient to overcome public’s qualified
right of access to quasi-judicial proceedings).
Public access to the opinions of this Court is
important to the functioning of the law and the FISA
system in several respects.
First, public access to the opinions of this Court
will promote public confidence in the integrity,
reliability, and independence of the FISC and the
FISA system. Access to the reasoning and actions of
this Court will allow the public to evaluate for itself
the operation of the FISA system and the legal bases
for the government’s actions. As the Supreme Court
has explained, “[pjeople in an open society do not
demand infallibility from their institutions, but it is
difficult for them to accept what they are prohibited
from observing.” Press-Enter. II, 478 U.S. at 13
(quotation marks omitted); see, e.g., Globe Newspaper,
457 U.S. at 606 (public access to court documents and
proceedings “fosters an appearance of fairness,
thereby heightening public respect for the judicial
process”); Aref, 533 F.3d at 83 (“Transparency is
pivotal to public perception of the judiciary’s
legitimacy and independence.”); In re Orion Pictures
Corp., 21 F.3d 24, 26 (2d Cir. 1994) (public access
“helps safeguard the integrity, quality, and respect in
our judicial system, and permits the public to keep a
watchful eye on the workings of public agencies”
(quotation marks and citations omitted)); Ressam, 221
F. Supp. 2d at 1263 (explaining that “the general
practice of disclosing court orders to the public not
only plays a significant role in the judicial process, but
is also a fundamental aspect of our country’s open
administration of justice”).

29a

Second, and relatedly, access to this Court’s
opinions will improve democratic oversight. Because
the information released to date does not fully
describe the constitutional and statutory bases for the
government’s surveillance activities under FISA, the
release of the requested opinions would permit the
public—and Congress itself—to more properly assess
these programs and to take action accordingly. See
generally Br. of Amici Curiae U.S. Representatives
Amash et al. in Support of the Motion of the ACLU
and MFIAC for the Release of Court Records, In re
Section 215 Orders, No. 13-02 (FISC June 28, 2013),
http://l.usa.gov/lORRcc4. Members of Congress have
acknowledged the importance of proper oversight, but
that oversight has been impeded by the secrecy
surrounding the Court’s interpretations of the
government’s surveillance powers. See, e.g., Letter
from Sens. Dianne Feinstein, Jeff Merkley, Ron
Wyden & Mark Udall to Hon. John Bates, PresidingJudge, FISC (Feb. 13, 2013), http://bit.ly/2eeW0cf.
Indeed, members of this Court have recognized the
value of public disclosure of its opinions construing the
government’s surveillance authority. See, e.g., In re
Section 215 Orders, 2013 WL 5460064, at *7; cf. Ellen
Nakashima & Carol D. Leonnig, Effort Underway to
Declassify Document that Is Legal Foundation for
NSA Phone Program, Wash. Post, Oct. 12, 2013,
http://wpo.st/qsYbl (“[Judge] Kollar-Kotelly told
associates this summer that she wanted her legal
argument out, according to two people familiar with
what she said. Several members of the intelligence
court want more transparency about the court’s role
to dispel what they consider a misperception that the
court acted as a rubber stamp for the administration’s
top-secret spying programs.”). As the Supreme Court
noted in Richmond Newspapers, “[w]ithout publicity,
30a

all other checks are insufficient: in comparison of
publicity, all other checks are of small account.” 448
U.S. at 569 (quotation marks omitted) (quoting
Jeremy Bentham, Rationale of Judicial Evidence 524
(1827)). In enacting the USA FREEDOM Act,
Congress acknowledged these interests and sought to
give the public access to the Court’s significant legal
pronouncements. See 50 U.S.C. § 1872; 161 Cong. Rec.
S2772—01, S2778—79 (statement of Sen. Blumenthal).
Third, allowing the public to review and assess the
reasoning of the opinions of this Court will support
more refined judicial decisionmaking in future cases.
For example, since public attention focused on FISA
surveillance and this Court’s rulings beginning in
June 2013, there has been a proliferation of highly
sophisticated legal and technical debate over the
foundations of the government’s various nationalsecurity surveillance programs.21 In camera
decisionmaking cannot provide the Court with the
same breadth of analysis and expertise, especially
over the long-term, because it does not allow for the
same interplay and development of various
viewpoints. The detailed public discussion that has
begun today was impossible prior to the release of this
Court’s opinions, and it can only benefit the FISA
system.
21 See, e.g., Laura K. Donohue, Section 702 and the Collection of
International Telephone andlnternet Content, 38 Harv. J.L. &
Pub. Pol’y 117 (2015), http://www.harvard-jlpp.com/wpcontent/uploads/2015/02/Donohue_Final.pdf; David S. Kris, On
the Bulk Collection of Tangible Things, Lawfare Res. Paper
Series (Sep. 29, 2013), http://bit.ly/2eKWyZT; Steven M. Bellovin
et al., It’s Too Complicated: How the Internet Upends Katz,
Smith, and Electronic Surveillance Law, Harv. J. of L. & Tech,
(forthcoming 2016), http://bit.ly/2ectB8K:

31a

Fourth, publishing this Court’s opinions of broad
legal significance will contribute to the body of
decisional law essential to the functioning of our
common-law system. Article III courts have always
built upon the work of their predecessors by refining,
reworking, or even, at times, abandoning decisions
issued in the past. See, e.g., Penny v. Little, 4 Ill. (3
Scam.) 301, 304 (1841) (“The common law is a
beautiful system; containing the wisdom and
experience of ages.”). This iterative process lies at the
foundation of our legal system but has been stunted
by the continued secrecy of this Court’s significant
legal opinions. Other courts should have access to this
Court’s determinations relating to surveillance, new
technologies, privacy, and First Amendment
protections so that they may rely on, respond to, or
distinguish this Court’s reasoning.22 Both the FISC
and ordinary federal courts have important
perspectives to offer on emerging legal issues related
to surveillance that inescapably cut across
jurisdictions and even statutes. That courts might,
when permitted to engage in an open and good-faith
debate about such matters, disagree—or agree—about
the proper outcomes, is a strength of the common-law
system—not a reason to keep one jurisdiction’s law
22 See also, e.g., California v. Carney, 471 U.S. 386, 400-01
(1985) (Stevens, J., dissenting) (“The only true rules governing
search and seizure have been formulated and refined in the
painstaking scrutiny of case-by-case adjudication. ... To identify
rules that will endure, we must rely on the state and lower
federal courts to debate and evaluate the different approaches to
difficult and unresolved questions of constitutional law.
Deliberation on the question over time winnows out the
unnecessary and discordant elements of doctrine and preserves
‘whatever is pure and sound and fine.’” (quoting Benjamin
Cardozo, The Nature of the Judicial Process 179 (1921))).

32a

siloed and unavailable for logical development. See,
e.g., Clapper, 785 F.3d 787; Cent. States, Se. & Sw.
Areas Pension Fund v. Int’l Comfort Prods., LLC, 585
F.3d 281, 287 (6th Cir. 2009) (agreeing with the
FISCR that it is important to avoid a “snowballing of
precedent unconnected to the ‘actual statutory
language at issue’”) (citing In re Sealed Case, 310 F.3d
717, 725-27 (FISCR 2002)).
For these reasons, disclosure of this Court’s
opinions addressing novel interpretations of the
government’s
surveillance
authorities
would
contribute to the functioning of the FISA system and
benefit the public interest. Cf. In re Section 215
Orders, 2013 WL 5460064, at *7 (stating that
“movants and amici have presented several
substantial reasons why the public interest might be
served by theQ publication” of FISC opinions
interpreting Section 215).

In sum, because there is a longstanding American
tradition of public access to judicial opinions; because
such access positively contributes to the integrity of
the judicial process, the democratic legitimacy of this
Court, and the public understanding of laws passed in
its name; and because the release of the requested
opinions and orders would illuminate crucial gaps in
the public knowledge about the legal justifications for
its government’s surveillance activities, the public’s
First Amendment right of access attaches to the
Court’s legal opinions containing novel or significant
interpretations of law.
This Court erred in concluding otherwise in
denying a 2007 public-access motion brought by the
ACLU. First, by limiting its analysis to whether two
33a

previously published opinions of this Court “establish
a tradition of public access,” the Court took too narrow
a view of the “experience” prong of the Supreme
Court’s test. See In re Motion for Release of Court
Records, 526 F. Supp. 2d at 493 (emphasis omitted).
Again, “the ‘experience’ test of Globe Newspaper does
not look to the particular practice of any one
jurisdiction, but instead to the experience in that type
or kind of hearing throughout the United States.” El
Vocero, 508 U.S. at 150 (quotation marks omitted).
Second, the Court erred in concluding that public
access would “result in a diminished flow of
information, to the detriment of the process in
question.” See In re Motion for Release of Court
Records, 526 F. Supp. 2d at 496. Instead, disclosure of
the requested opinions would serve weighty
democratic interests by informing the governed about
the meaning of public laws enacted on their behalf.
B. The First Amendment Requires
Disclosure of the Court’s Opinions
Containing Novel or Significant
Interpretations of Law.
Although the First Amendment right of access is a
qualified one, judicial records that are subject to the
right may be kept from the public only upon a rigorous
showing. Different formulations have been used by
various courts to define the showing that must be
made, but the governing standard applied by the
Supreme Court encompasses four distinct factors:
1. There must be a “substantial probability”
of prejudice to a compelling interest. A
party seeking to restrict the right of access
must demonstrate a substantial probability
that openness will cause harm to a compelling

34a

governmental interest. See, e.g., Press-Enter. II,
478 U.S. at 13-14; Press-Enter. I, 464 U.S. at
510; Richmond Newspapers, 448 U.S. at 58081. In Press-Enterprise II, the Court specifically
held that a “reasonable likelihood” standard is
not sufficiently protective of the right and that
a “substantial probability” standard must be
applied. 478 U.S. at 14-15. This standard
applies equally in the context of national
security. See In re Wash. Post, 807 F.2d at 392.
2. There must be no alternative to
adequately
protect
the
threatened
interest. A party seeking to defeat access must
further demonstrate that nothing short of a
limitation on the constitutional right of access
can adequately protect the threatened interest.
See Press- Enter. II, 478 U.S. at 13-14; see also
Presley u. Georgia, 558 U.S. 209, 214—15 (2010)
(per curiam) (“[T]rial courts are required to
consider alternatives to closure even when they
are not offered by the parties” and “are
obligated to take every reasonable measure to
accommodate public attendance at criminal
trials.”); In re Herald Co., 734 F.2d 93, 100 (2d
Cir. 1984) (A “trial judge must consider
alternatives and reach a reasoned conclusion
that closure is a preferable course to follow to
safeguard the interests at issue.”); Robinson,
935 F.2d at 290.
3. Any restriction on access must be
narrowly tailored. Even “legitimate and
substantial” governmental interests “cannot be
pursued by means that broadly stifle
fundamental personal liberties when the end
can be more narrowly achieved.” Shelton v.
35a

Tucker, 364 U.S. 479, 488 (1960). Any
limitation imposed on public access thus must
be no broader than necessary to protect the
threatened interest. See, e.g., Press-Enter. II,
478 U.S. at 13-14; Lugosch, 435 F.3d at 124;
Robinson, 935 F.2d at 287.
4. Any restriction on access must be
effective. Any order limiting access must be
effective in protecting the threatened interest
for which the limitation is imposed. As
articulated in Press-Enterprise II, the party
seeking secrecy must demonstrate “that closure
would prevent” the harm sought to be avoided.
478 U.S. at 14; see Robinson, 935 F.2d at 29192 (disclosure could not pose any additional
threat in light of already publicized
information); In re Herald Co., 734 F.2d at 101
(closure order cannot stand if “the information
sought to be kept confidential has already been
given sufficient public exposure”); United
States v. Hubbard, 650 F.2d 293, 322 (D.C. Cir.
1980) (“One possible reason for unsealing is
that the documents were already made public
through other means.”).
The party seeking to restrict access bears the burden
of presenting specific facts that satisfy this four-part
test. See Press-Enter. II, 478 U.S. at 15 (“The First
Amendment right of access cannot be overcome by [a]
conclusory assertion.”).
The government cannot satisfy these strict
standards in order to justify withholding the FISC’s
significant and novel opinions and orders in full. The
proposition that the government has an interest—let
alone a “compelling” one—in preventing disclosure of

36a

this Court’s opinions on novel or significant
interpretations of FISA is insupportable. In fact, a
public accounting of this Court’s legal analysis would
serve governmental interests by clarifying the scope of
the government’s surveillance powers and the legal
reasoning supporting them. See, e.g., Nakashima &
Leonnig, supra (quoting current and former
government officials advocating for release of original
FISC bulk-collection opinion). Even the General
Counsel of the ODNI has recognized the importance of
publicly discussing the legal framework under which
the government conducts its surveillance programs
and
of
“demystify [ing]
and
correcting]
misimpressions” the public may have about the
government’s surveillance activities. ODNI, General
Counsel Robert Litt’s as Prepared Remarks on Signals
Intelligence Reform, IC on the Record (Feb. 4, 2015),
http://bit.ly/2e2JlOM.
Of course, portions of the Court’s opinions may be
sealed to serve compelling governmental interests—
for example, to protect intelligence sources and
methods that have not been previously disclosed—but
the First Amendment requires the Court itself to
ensure that any redactions are narrowly tailored to
serve that interest. Cf. Pepsico, Inc. v. Redmond, 46
F.3d 29, 31 (7th Cir. 1995) (Easterbrook, J.) (“The
judge must make his own decision about what should
be confidential. . . and what may be spoken of openly.
I regret that this means extra work for the judge, but
preserving the principle that judicial opinions are
available to the public is worth at least that much
sacrifice.”); Nakashima & Leonnig, supra (quoting
former senior DOJ attorney Kenneth Wainstein as
arguing that “[e] specially when it comes to legal
decisions about big programs, . . . we can talk about

37a

them in a sanitized way without disclosing sources
and methods”). This Court itself has rejected the
government’s overbroad classification claims in
releasing opinions in the past. See Declassification
Order at 6-7, In re Section 215 Orders. Important to
the analysis here will be the numerous disclosures
made to date, which provide critical context for
assessing any claim that disclosure of the rulings
sought here would harm the government’s interests.
See, e.g., Merrill v. Lynch, 151 F. Supp. 3d 342, 350
(S.D.N.Y. 2015) (ordering release of details of
challenged national-security letter and relying
heavily on previous disclosures to find that the
government had “not demonstrated a good reason” to
expect harm would arise as a result of the ordered
release); Doe v. Gonzales, 386 F. Supp. 2d 66, 78 (D.
Conn. 2005) (relying in part on “the nature and extent
of information about the [national-security letter] that
has already been disclosed by the defendants” in
determining that “the government has not
demonstrated a compelling interest in preventing
disclosure of the recipient’s identity”).
III.

THE COURT SHOULD ORDER
DECLASSIFICATION REVIEW UNDER
RULE 62 AND APPLY THE FIRST
AMENDMENT STANDARD TO ANY
PROPOSED SEALING BY THE
GOVERNMENT.

In implementing the constitutional right of access
to opinions concerning novel or significant
interpretations of law, the Court should first order the
government to conduct a declassification review of the
opinions pursuant to FISC Rule 62(a). See, e.g., In re
Section 215 Orders, 2013 WL 5460064, at *7;

38a

Declassification Order at 5—7, In re Section 215 Orders
(discussing FISC judge’s review of proposed
redactions); Order, In re Application of the FBI for an
Order Requiring the Production of Tangible Things
from [Redacted], No. BR 13-109 (FISC Aug. 23, 2013),
http://www.fisc.uscourts.gov/sites/default/files/BR%2
013-109%200rder-2.pdf (discussing sua sponte
request by FISC judge to publish memorandum
opinion under FISC R.P. 62(a)); In re Directives
[Redacted] Pursuant to Section 105B of the Foreign
Intelligence Surveillance Act, 551 F.3d 1004, 1016
(FISCR 2008).
If, after the completion of that review, the
government proposes to redact any information in the
Court’s opinions, the Court should set a briefing
schedule, requiring the government to justify how its
sealing request meets the constitutional standard set
out above, and allowing the ACLU to contest any
sealing it believes to be unjustified. Although the
Court should give due consideration to the
government’s predictive judgments of harm to
national security, it should not simply defer to those
judgments or to the results of the government’s
declassification review. See, e.g., In re Wash. Post, 807
F.2d at 392. The First Amendment right of access is a
constitutional right that belongs to the public, and
that right can be overcome only upon specific findings
by a court, including a finding that disclosure would
risk a substantial probability of harm to a compelling
interest. See supra Part II.B.23
23 In evaluating the government’s declassification review of
FISC opinions in response to theACLU’s prior motion in this
Court, the Court noted that the government’s proposed
redactions “passe [d] muster” under the First Amendment
standard, even while declining to reach the ultimate question

39a

Independent judicial review of any proposed
redactions from this Court’s opinions is necessary
because—as was made clear in In re Section 215
Orders when the ACLU moved this Court for public
access to other FISC opinions—the standards that
justify classification do not always satisfy the strict
constitutional standard, and because executivebranch decisions cannot substitute for the judicial
determination required by the First Amendment.
Declassification Order at 10—11, In re Section 215
Orders (applying First Amendment standard to this
Court’s review of the government’s second redaction
proposal). Specifically, information may be classified
on a simple determination by the executive branch
that “the unauthorized disclosure of [the information]
reasonably could be expected to cause damage to the
national security.” Exec. Order No. 13,526, 75 Fed.
Reg. 707, § 1.2(a) (Dec. 29, 2009) (emphasis added).
The First Amendment, however, can be overcome only
upon a showing of a “substantial probability” of harm,
a standard that the Supreme Court has specifically
held to be more stringent than a “reasonable
likelihood” test. Press-Enter. II, 478 U.S. at 14.
Moreover, under the classification regime, the
executive branch alone decides whether to consider
the public’s interest in disclosure, and it does so only
in “exceptional cases.” Exec. Order No. 13,526 § 3.1(d).
Applying that standard to judicial records would flatly
contradict the First Amendment right of access, which
presumes that the public’s interest is in disclosure,
and permits sealing only if there are no less-restrictive

whether the First Amendment right of access applied. See
Declassification Order at 9, n.10, In re Section 215 Orders.

40a

alternatives and if the limitation on access is narrowly
tailored.
Indeed, judicial intervention in and oversight of
government declassification of sealed judicial opinions
has led to the release of additional information to
which the public was entitled. In In re Section 215
Orders, after this Court ordered a declassification
review of a FISC opinion, the government determined
that the opinion should be “withheld in full,” but the
FISC judge demanded “a detailed explanation” of why
the opinion could not be released in redacted form.
Order, In re Section 215 Orders, No. Misc. 13-02 (FISC
Nov. 20, 2013), http://l.usa.gov/258tRH8. In response,
the government agreed to release the opinion in
redacted form, but it took multiple proposals before
this Court was satisfied that all redactions were
sufficiently narrowly tailored. Declassification Order
at 5-7, In re Section 215 Orders (describing this
Court’s back-and-forth with the government on
proposed redactions to the opinion). Similarly, careful
judicial review of redactions in other cases has led to
greater disclosure than the government initially
proposed. See, e.g., Order, In re Directives Pursuant to
§ 105B of FISA, No. 105B(g) 07-01 (FISC Feb. 5, 2016),
http://l.usa.gov/lOIbClC (ordering the government to
respond to FISC judge’s concerns “about the scope of
certain proposed redactions” in response to an earlier
order to conduct a declassification review of
documents filed in the case).
Furthermore, whether the public’s constitutional
right of access is outweighed by a compelling interest
in continued sealing is a question for the courts, not
one that rests with the executive. See Press-Enter. II,
478 U.S. at 13—14. As the Fourth Circuit has forcefully
explained,
41a

[Tjroubled as we are by the risk that
disclosure of classified information could
endanger the lives of both Americans
and their foreign informants, we are
equally troubled by the notion that the
its
abdicate
should
judiciary
decisionmaking responsibility to the
executive branch whenever national
security concerns are present. History
teaches us how easily the spectre of a
threat to “national security” may be used
to justify a wide variety of repressive
government actions. A blind acceptance
by the courts of the government’s
insistence on the need for secrecy,
without notice to others, without
argument, and without a statement of
impermissibly
would
reasons,
compromise the independence of the
judiciary and open the door to possible
abuse.
In re Wash. Post, 807 F.2d at 391-92; see United States
v. Hershey, 20 M.J. 433, 436 (C.M.A. 1985) (“[Ejven
when the interest sought to be protected is national
security, the Government must demonstrate a
compelling need to exclude the public . . . .” (emphasis
omitted)); United States u. Grunden, 2 M.J. 116, 122
(C.M.A. 1977) (although classification and the policy
determinations it involves “are not normal judicial
functions, immunization from judicial review cannot
be countenanced in situations where strong
countervailing constitutional interests exist”).
In other contexts, too, courts routinely scrutinize
executive-branch classifications. See, e.g., Campbell v.
DOJ, 164 F.3d 20, 30 (D.C. Cir. 1999); Goldberg v.

42a

DOS, 818 F.2d 71, 76 (D.C. Cir. 1987). This principle
is not controversial, and in other forums, the
government has expressly accepted it. See, e.g., Final
Reply Br. for Appellants at 8 n.l, Ctr. for Int’l Envtl.
Law v. Office of the U.S. Trade Rep., No. 12-5136 (D.C.
Cir. Nov. 27, 2012), 2012 WL 5940305 (clarifying that
the government has not “suggested that the
Executive’s determination that a document is
classified should be conclusive or unreviewable”).
For these reasons, merely ordering discretionary
release
under
Rule
62(a)
after
executive
declassification review would not satisfy the
constitutional right of access. The Court should thus
order declassification review as a first step and then
test any sealing proposed by the government against
the standard required by the First Amendment. Of
course, even if the Court holds that the First
Amendment right of access does not attach to the legal
opinions requested by Movant, it should nonetheless
exercise its discretion—as it has in the past and in the
public interest—to order the government to conduct a
declassification review of its opinions pursuant to
Rule 62. See, e.g., In re Section 215 Orders, 2013 WL
5460064, at *7.
CONCLUSION
For the foregoing reasons, Movant respectfully
requests that this Court unseal its opinions and orders
containing novel or significant interpretations of law,
including but not limited to those described in the
Appendix, with only those limited redactions that
satisfy the strict test to overcome the constitutional
right of access.
Dated: October 18, 2016

43a

APPENDIX
Undisclosed Opinions and Orders of the Foreign Intelligence Surveillance Court
Issued Between September 11, 2001, and June 2, 2015
Subject of
Opinions
or Orders
2015 Authorizing bulk
searches of
incoming Yahoo!
email for a
computer
“signature”
pursuant to FISA

1
p

i

Source
Identifying
Opinions or
Orders
Charlie Savage &
Nicole Perlroth,
Yahoo Said to Have
Aided U.S. Email
Surveillance by
Adapting Spam
Filter, N.Y. Times
(Oct. 5, 2016).1

Available at: http://nyti.ms/2dFsC0q.

Description

“A system intended to scan emails for child pornog­
raphy and spam helped Yahoo satisfy a secret court
order requiring it to search for messages containing
a computer ‘signature’ tied to the communications of
a state-sponsored terrorist organization. . .
“Two government officials who spoke on the condition
of anonymity said the Justice Department obtained
an individualized order from a judge of the Foreign
Intelligence Surveillance Court last year.”

Date

2

4^
to

Subject of
Opinions
or Orders
Addressing the
government’s
use of
malware—for
example, NITs
and Computer
and Internet
Protocol
Address
Verifiers
(“CIPAVs” or
“IPAVs”)

Source
Identifying
Opinions or
Orders
FBI records
released via
FOIA, including
FBI email dated
Dec. 8, 2004.2

Description

The FBI emails describe, for example, the use
of the “IPAV tool” in “both criminal and FISA
cases.”

2
Available at: https://www.eff.org/files/filenode/cipav/fbi_cipav-01.pdf (PDF page 5). See also
https://www.eff.org/files/filenode/cipav/fbi_cipav-08.pdf; https://www.eff.org/files/filenode/cipav/fbi_cipav15.pdf.

Source
Identifying
Opinions or
Orders
Addressing the Glenn Greenwald,
use of FISA or Microsoft Handed
Section 702 to the NSA Access
compel private to Encrypted
Messages,
companies to
Guardian,
provide
July 12, 2013.3
technical
assistance,
including
measures that
weaken or
circumvent
encryption
Subject of
Opinions
or Orders

3

On
U>

3
data.

Description

The report describes assistance provided by
technology companies to facilitate NSA and
FBI access to encrypted communications of
their users and quotes a joint statement by
NSA and ODNI officials:
“The article[] describe[s] court-ordered
surveillance—and a US company’s efforts to
comply with these legally mandated
requirements.”

Available at: https://www.theguardian.com/world/2013/jul/ll/microsoft-nsa-collaboration-user-

Date

4

4^
Cfl

Subject of
Opinions
or Orders
Addressing the
use of FISA to
compel the
disclosure of
source code by
technology
companies

Source
Identifying
Opinions or
Orders
Zack Whittaker,
US Government
Pushed Tech
Firms to Hand
Over Source
Code, ZDNet,
Mar. 17, 2016.4

Description

“The US government has made numerous
attempts to obtain source code from tech
companies in an effort to find security flaws
that could be used for surveillance or
investigations.”
“The government has demanded source code in
civil cases filed under seal but also by seeking
clandestine rulings authorized under the
secretive Foreign Intelligence Surveillance Act
(FISA), a person with direct knowledge of these
demands told ZDNet.”

4
Available at: http://www.zdnet.com/article/us-governnient-pushed-tech-firms-to-hand-over-sourcecode/.

Source
Identifying
Opinions or
Orders
5 2009 Addressing the Charlie Savage
et al., Hunting for
use of “cyber­
Hackers, N.S.A.
signatures”
Secretly Expands
and Internet
Internet Spying
Protocol
at U.S. Border,
addresses to
conduct FISA
N.Y. Times,
and Section
June 4, 2015.5
702 surveil­
lance
Subject of
Opinions
or Orders

4^
oo

Description

“About that time [in May 2009], the documents
show, the N.S.A.— whose mission includes
protecting military and intelligence networks
against intruders—proposed using the
warrantless surveillance program for
cybersecurity purposes. The agency received
‘guidance on targeting using the signatures’
from the Foreign Intelligence Surveillance
Court, according to an internal newsletter.”

5
Available at: http://www.nytimes.com/2015/06/05/us/hunting-for-hackers-nsa-secretly-expandsinternet-spying-at-us-border.html.

Date

Subject of
Opinions
or Orders

Description

6 2011
and
ear­
lier

Addressing
FISA
surveillance
directed at
computer
intrusions

NS A,
Memorandum re:
SSO’s Support to
the FBI for
Implementation
of their Cyber
FISA Orders 1-2
(Mar. 27, 2012).6

“The FISC has issued a number of orders at the
request of the FBI authorizing electronic
surveillance directed at communications
related to computer intrusions being conducted
by foreign powers. The orders include some
that are limited to pen register/trap and trace
(PR/TT) as well as other that authorize
collection of content.”

7

Addressing
the use of
“stingrays”
or cell-site
simulator
technology
pursuant to
FISA

DOJ, Policy
Guidance: Use
of Cell-Site
Simulator
Technology 1 n.l
(Sept. 3, 2015).7

“When acting pursuant to the Foreign
Intelligence Surveillance Act, Department of
Justice components will make a probable-cause
based showing and appropriate disclosures to
the [FISC] in a manner that is consistent with
the guidance set forth in this policy.”

VO
ffl

Source
Identifying
Opinions or
Orders

6
Available at: http://www.nytimes.com/interactive/2015/06/04/us/document-cyber-surveillancedocuments.html (PDF pages 5-6).
7

Available at: https://www.justice.gov/opa/file/767321/download.

Date

8

Feb.
and
Mar.
2006

o
p

Subject of
Opinions
or Orders
Addressing
First
Amendment
restrictions on
Section 215
surveillance

Source
Identifying
Opinions or
Orders
DOJ Office of the
Inspector
General, A
Review of the
FBI’s Use of
Section 215 for
Business Records
in 2006 at 68
(Mar. 2008). 8

Description

“The Section 215 request was presented to the
FISA Court as a read copy application in
February and March 2006. On both occasions
the Court declined to approve the application
and order. . . . OIPR and NSLB e-mails state
that the FISA Court decided that ‘the facts
were too thin and that this request implicated
the target’s First Amendment rights.’”

Available at: https://assets.documentcloud.org/documents/1385905/savage-nyt-foia-doj-ig-reportspatriot-act.pdf#page=187 (PDF page 187).
8

Date

9

Subject of
Opinions
or Orders
Addressing the
collection of
location
information
under FISA or
Section 215

Source
Identifying
Opinions or
Orders
Charlie Savage,
In Test Project,
N.S.A. Tracked
Cellphone
Locations,
N.Y. Times,
Oct. 2, 2013.9

Description

Director of National Intelligence James
Clapper said that “the N.S.A. had promised to
notify Congress and seek the approval of a
secret surveillance court in the future before
any locational data was collected using Section
215.”
Senator Ron Wyden, a member of the
Intelligence Committee, said that “[a]fter years
of stonewalling on whether the government has
ever tracked or planned to track the location of
law-abiding Americans through their
cellphones, once again, the intelligence
leadership has decided to leave most of the real
story secret—even when the truth would not
compromise national security.”

p

9

html.

Available at: http://www.nytimes.com/2013/10/03/us/nsa-experiment-traced-us-cellphone-locations.

Subject of
Opinions
or Orders
10

Addressing
FISA’s crimi­
nal penalties
provision,
50U.S.C.
§ 1809(a)

Source
Identifying
Opinions or
Orders
October 3, 2011
FISC Opinion at
17 n.15.10

Description

FISC opinion “concluding that Section
1809(a)(2) precluded the Court from approving
the government’s proposed use of, among other
things, certain data acquired by the NSA
without statutory authority through its
‘upstream collection.’”

£13

10
Available at: https://www.aclu.org/sites/default/files/field_document/October 2011 John Bates
FISC Opinion.pdf.

Date

11

L/i
UJ
PD

11

Subject of
Opinions
or Orders
Addressing
bulk collection
of financial
records by the
CIA and FBI
under Section
215

Source
Identifying
Opinions or
Orders
Siobhan Gorman
et al., CIA’s
Financial Spying
Bags Data on
Americans, Wall
St. J., Jan. 25,
2014.11

Available at: http://on.wsj.com/ld02n2T.

Description

“The program, which collects information from
U.S. money-transfer companies including
Western Union, is carried out under the same
provision of the Patriot Act that enables the
National Security Agency to collect nearly all
American phone records, the officials said. Like
the NSA program, the mass collection of
financial transactions is authorized by a secret
national-security court, the Foreign
Intelligence Surveillance Court.”

Date

Subject of
Opinions
or Orders

12 Aug. Addressing
20, NSA queries
200812 of records
collected in
bulk

Source
Identifying
Opinions or
Orders
Declaration of
Jennifer L.
Hudson H 40-46,
ACLUu. FBI,
No. ll-cv-07562
(S.D.N.Y. Apr. 4,
2014) (ECF
No. 87).

Description

“The August 2008 FISC Opinion addresses the
NSA’s use of a specific intelligence method in
the conduct of queries of telephony metadata or
call detail records. . .

12
This Court previously denied without prejudice the ACLU’s motion for disclosure of this opinion
because the same record was at issue in then- pending FOIA litigation. See In re Section 215 Orders,
No. Misc. 13-02, 2013 WL 5460064, at *6-7 (FISC Sept. 13, 2013). The district court ultimately
declined to order disclosure of the August 20, 2008 opinion under FOIA. See ACLU v. FBI, No. ll-cv07562, 2015 WL 1566775 (S.D.N.Y. Mar. 31, 2016). Accordingly, the ACLU renews its request for
disclosure of the opinion based upon the First Amendment right of access and the grounds set forth in
this motion.

Date

Ui
L/1

p

Subject of
Opinions
or Orders

Source
Identifying
Opinions or
Orders
13 Oct. Addressing
See, e.g., Elec.
Frontier Found,
2006; collection of
Feb. records under v. DOJ, No. 11cv-05221, 2014
2006; Section 215,
Dec. including
WL 3945646, at
200513 collection of
*2 (N.D. Cal.
records in
Aug. 8, 2014).
bulk
14
Addressing
NS A,
unauthorized Memorandum for
NS A
the Chairman,
surveillance Intelligence
Oversight Board
at 10-11 (May 16.
2013).14

Description

Opinions or orders previously identified by the
government pursuant to FOIA as containing
“significant” legal interpretations of Section
215.

“[Redacted] NSA notified Congressional
intelligence committees about the FISC’s
opinion relating to [redacted]. NSA purged the
unauthorized collection and recalled all
reporting based on those communications.
[Redacted] the FISC authorized such collection
to be undertaken prospectively.”

13
The district court in ACLU u. FBI, 2015 WL 1566775, declined to order disclosure of the
October 2006 records to the ACLU under FOIA.
14
Available at: https://www.aclu.org/sites/default/files/field_document/May%2016%2C%202013
%20--%20Report%20to%20the%20Presidents%20Intelligence%200versight%20Board%20-%202Q%20FY
%202013_0.pdf.

Date

15

L/i

On

Subject of
Opinions
or Orders

2013 Addressing
changes to
2013 NSA
minimization
procedures
for Section
702
surveillance

Source
Identifying
Opinions or
Orders
NSA Office of
the Inspector
General,
Implementation
of § 215 of the
USA PATRIOT
Act and § 702 of
the FISA
Amendments Act
of 2008 (dated
Feb. 20, 2015).15

Description

“An amendment to the Minimization
procedures was made in late 2013. A section
was added precluding NSA from using
information acquired pursuant to FAA §702
unless NSA determines, based on the totality of
the circumstances, that the target is
reasonably believed to be outside the United
States at the time the information was
acquired.”

15
Available at: https://assets.documentcloud.org/documents/2712306/Savage-NYT-FOIA-IG-Reports702-2.pdf (PDF page 312).

Date

16

CO

Subject of
Opinions
or Orders

Aug. Addressing
30, sharing of
2013 Section 702
information
with private
entities to
mitigate
computer
intrusions

Source
Identifying
Opinions or
Orders
August 26, 2014
FISC Opinion at
18-19 n.19.16

Description

“The FISC approved the current version of this
provision under Section 702 on August 30,
2013. See August 30, 2013 Opinion at 17-19.”

16
Available at: https://www.aclu.org/sites/default/files/field_document/fisc_opinion_and_order_
re_702_dated_26_august_2014_ocrd.pdf.

Date

C/1

oo
p

Subject of
Opinions
or Orders

17 Sept. Addressing
20, sharing of
2012 Section 702
information
with private
entities to
mitigate
computer
intrusions

Source
Identifying
Opinions or
Orders
August 26, 2014
FISC Opinion at
18 n.19.17

Description

“The FISC first approved a version of this
provision under Section 702 on September 20,
2012, in connection with a prior Section 702
certification. See [Redacted] Memorandum
opinion entered on Sept. 20, 2012, at 22
(“September 20, 2012 Opinion”). At that time,
the FISC noted that the provision at issue
[redacted].”

Available at: https://www.aclu.org/sites/default/files/field_document/fisc_opinion_and_order_
re_702_dated_26_august_2014_ocrd.pdf.
17

Date

18

VO
P

Subject of
Opinions
or Orders

2008 Addressing
to
NSA’s
2010 targeting and
minimization
procedures
for Section
702
surveillance

Source
Identifying
Opinions or
Orders
NS A Office of
the Inspector
General, Final
Report of the
Audit on the
FISA
Amendments Act
§ 702 Detasking
Requirements
(dated Nov. 24,
2010).18

Description

“Although this section of the draft report notes
that the FISC has expressed ‘concern’ about
the modifications the Government proposed
[redacted] to NSA’s FAA 702 targeting and
minimization procedures, the report fails to
note that the Court’s concern was with the
[redacted] issue. [The Office of General
Counsel]’s understanding is that the Court
concluded that even the modest changes
proposed [redacted] to address one aspect of
the [redacted] were incompatible with the
current statutory framework.”

18
Available at: https://assets.documentcloud.org/documents/2712306/Savage-NYT-FOIA-IG-Reports702-2.pdf (PDF page 53).

Date

Addressing
FISA penregister
surveillance
and/or
collection of
post-cut
through
dialed digits
20 Dec. Addressing
retention of
10
2010 information
obtained
through
unauthorized
electronic
surveillance

19

o\
o

Subject of
Opinions
or Orders

19

Source
Identifying
Opinions or
Orders
See, e.g., Second
Decl. of David M.
Hardy Til 10-13,
Elec. Privacy
Info. Ctr. v. DOJ,
No. 13-cv-1961
(D.D.C. Nov. 7,
2014), ECF
No. 24-1.19
November 6, 2015
FISC Opinion at
56-57.20

Description

“The FISC orders discuss classified
investigative information regarding the
underlying FISA applications, the type and
character of information to be collected through
the PR/TT order as well as details regarding
that particular FISC court proceeding.”

“Opinion and Order Regarding Fruits of
Unauthorized Surveillance issued on December
10, 2010.”

Available at: https://epic.org/foia/doj/pen-reg-trap-trace/24-Second-Hardy-Decl.pdf.

20
Available at: https://www.dni.gov/files/documents/20151106-702Mem_Opinion_Order_for_Public
Release.pdf.

Date

Source
Identifying
Opinions or
Orders

Description

21

May
13,
2011

Requiring
November 6, 2015 “Opinion and Order Regarding Fruits of
destruction of FISC Opinion at Unauthorized Surveillance issued on December
information
56-57.20
10, 2010.”
obtained
through
unauthorized
electronic
surveillance

22

2007
or
ear­
lier

Authorizing
January 15, 2008
surveillance
FISC Opinion at
of targets
3 n.l.22 •
outside the
United States
prior to the
Protect
America Act

On
p

Subject of
Opinions
or Orders

“Prior to the PAA, the government had argued
that, in some contexts, surveillances of targets
outside the United States did constitute
electronic surveillance as defined by FISA,
such that the FISC had jurisdiction. The FISC
judges concluded that they did have
jurisdiction over certain types of such
surveillances.”

21

Available at'. https://www.dni.gov/files/documents/20151106-702Mem_Opinion_Order_for_Public
Release.pdf.
22
Available at', https://cdt.org/files/2014/09/49-yahoo702-memorandum-opinion-and-order-dni-agcertification.pdf.

Date

23

On
to

23

Subject of
Opinions
or Orders
Addressing
the scope of
searches and
seizures of
electronic
data,
including
computer
hard-drives
and other
large data
repositories,
and
applicable
minimization
requirements

Source
Identifying
Opinions or
Orders

Description

The FISC reviews and approves rules
See, e.g., FBI,
governing electronic surveillance and physical
Standard
searches for foreign-intelligence purposes,
Minimization
including searches and seizures of electronic
Procedures for
data that may encompass large volumes of
FBI Electronic
Surveillance and personal information.
Physical Search
Conducted under
FISA (Nov. 1,
2008).23

Available at: https://www.aclu.org/files/pdfs/natsec/faafoia20101129/FAAFBI0707.pdf.

APPENDIX D
UNITED STATES
FOREIGN INTELLIGENCE SURVEILLANCE
COURT OF REVIEW
IN RE OPINIONS & ORDERS BY THE FISC
ADDRESSING BULK COLLECTION
OF DATA UNDER THE
FOREIGN INTELLIGENCE SURVEILLANCE ACT
Docket No. FISCR 20-01
On Petition for Review of a Decision of the United
States Foreign Intelligence Surveillance Court
[Decided: APRIL 24, 2020]
Before: CABRANES, TALLMAN, and SENTELLE,
Judges.
Patrick Toomey, Brett Max Kaufman, American Civil
Liberties Union Foundation, New York, NY; Arthur B.
Spitzer, Scott Michelman, Michael Perloff, American
Civil Liberties Union Foundation of the District of
Columbia, Washington, D.C.; David Schulz, Charles
Crain, Media Freedom & Information Access Clinic,
Abrams Institute at Yale Law School, New Haven, CT;
Alex Abdo, Jameel Jaffer, Knight First Amendment
Institute at Columbia University, for Petitioners.
John C. Demers, J. Bradford Wiegmann, Melissa
MacTough, Jeffrey M. Smith, National Security
Division, United States Department of Justice,
Washington, D.C., for United States of America.

63a

Per Curiam:
On February 11, 2020, the United States Foreign
Intelligence Surveillance Court (the “FISC”)
(Rosemary M. Collyer, Judge) dismissed a motion filed
by the American Civil Liberties Union, the American
Civil Liberties Union of the District of Columbia1, and
the Media Freedom and Information Access Clinic
(jointly, the “Movants”)2 for the release of certain
opinions and orders by the FISC addressing the bulk
collection of data3 under the Foreign Intelligence
Surveillance Act (“FISA”).4 In a thoughtful and
careful opinion, the FISC rejected the Movants’ claim
that the withholding of redacted, non-public material
classified by the Executive Branch violates the
Movants’ First Amendment right of public access.5
The Movants now seek to appeal that decision to our
Court in the form of a Petition for Review (the
“Petition”); in the alternative, they seek a Writ of
Mandamus.

1 The name that was used in the FISC was the “American Civil
Liberties Union of the Nation’s Capital.”
2 Although the parties filing the Petition for Review or, in the
alternative, for a Writ of Mandamus are technically “Petitioners”
before this Court, we will refer to them as “Movants” throughout
this opinion to ensure uniformity and consistency with our earlier
opinions and orders on this matter.
3 See In re Opinions & Orders of this Court Addressing Bulk
Collection of Data Under the Foreign Intelligence Surveillance
Act (“In re Bulk Collection"), No. Misc. 13-08, 2020 WL 897659,
at *1, *16 (Foreign Intel. Surv. Ct. Feb. 11, 2020).
4 50U.S.C. §§ 1801—1885c.
5 See In re Bulk Collection, 2020 WL 897659, at *7-16.

64a

For the reasons stated below, we decline to
consider the merits of the Movants’ Petition and
DISMISS the Petition for lack of jurisdiction.

BACKGROUND
On November 7, 2013, the Movants filed a motion
seeking disclosure of the FISC’s opinions addressing
the Government’s bulk collection of data under the
FISA (the “Motion”). The Government identified four
such opinions. Two of the opinions had been made
public in redacted form by the FISC prior to the
Movants’ Motion.6 The other two opinions were
released subsequently, also in redacted form, by the
Government.7 The material that has been redacted in
these four opinions consists of highly sensitive
information that, following a declassification review,
the Executive Branch concluded remains classified
and, if released, could be damaging to our country’s
national security.8
On January 25, 2017, then-Presiding Judge
Rosemary M. Collyer dismissed the Motion on the
basis that the Movants lacked standing under Article
III of the Constitution to seek public disclosure of the
redacted, classified material in the FISC opinions.9 On
November 9, 2017, the FISC, sitting en banc,

6 See id. at *1.
7 See id. at *2.
8 See id. at *1.
9 See In re Opinions & Orders of this Court Addressing Bulk
Collection of Data Under the Foreign Intelligence Surveillance
Act, No. Misc. 13-08, 2017 WL 427591 (Foreign Intel. Surv. Ct.
Jan. 25, 2017).

65a

concluded otherwise by a vote of six to five.10 The FISC
held that the Movants have Article III standing to
bring their First Amendment claim and thus vacated
the dismissal.11
On January 5, 2018, the FISC certified the
question of the Movants’ Article III standing to this
Court,12 and on January 9, 2018, we accepted the
certification. On March 16, 2018, we issued our
decision answering the certified question by agreeing
with the standing analysis of the majority of the en
banc FISC and concluding that the Movants had
established their constitutional standing to raise their
First Amendment claim.13 Specifically, in answering
the certified question, we noted that the “denial of
access to the redacted material constitutes an injury
in fact” and that the Movants thus satisfied the
irreducible minimum of Article III standing.14 We

10 See In re Opinions & Orders of this Court Addressing Bulk
Collection of Data Under the Foreign Intelligence Surveillance
Act, No. Misc. 13-08, 2017 WL 5983865 (Foreign Intel. Surv. Ct.
Nov. 9, 2017) (enbanc).
11 Id. at *9.
12 See In re Opinions & Orders of this Court Addressing Bulk
Collection of Data Under the Foreign Intelligence Surveillance
Act, No. Misc. 13-08, 2018 WL 396244, at ‘“1 (Foreign Intel. Surv.
Ct. Jan. 5, 2018).
13 In re Certification of Questions of Law to the Foreign
Intelligence Surveillance Court of Review (“In re Certification’),
No. FISCR 18-01, 2018 WL 2709456 (Foreign Intel. Surv. Ct. of
Rev. Mar. 16, 2018).
14 Id. at *4 (explaining that a “plaintiff must satisfy three
minimum requirements: First, the plaintiff must have suffered
an ‘injury in fact.’ Second, there must be a causal connection
between the injury and the conduct complained of. Third, it must
be likely that the injury will be redressed by a favorable decision”

66a

also emphasized that we did not reach, much less
decide, any other question beyond the Movants’
standing, including whether “other jurisdictional
impediments exist to this challenge” or whether the
Movants could succeed on the merits of their First
Amendment claim.15 These remaining questions,
including the existence of subject matter jurisdiction
over the Motion, were left for the FISC to address on
remand.
On remand by the FISC en banc, on February 11,
2020, Judge Collyer issued an Opinion concluding
primarily that the FISC “has subject matter
jurisdiction over the Motion” and that “the First
Amendment does not confer a qualified right of public
access to the material sought by the Movants.”16
Accordingly, she rejected the Movants’ First
Amendment claim and dismissed the Motion. This
appeal followed.
DISCUSSION
It is beyond dispute that all federal courts,
including our own,
are courts of limited
jurisdiction.”17 Federal courts “possess only that
power authorized by Constitution and statute, which
(citing Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61 (1992)).
15 Id. at *7.
16 In re Bulk Collection, 2020 WL 897659, at *3.
17 Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377
(1994); see In re Certification, 2018 WL 2709456, at *4 (noting
that we “have held that the FISC’s authority and inherent
secrecy is cabined by—and consistent with—Article III of the
Constitution” and that we “assume the FISC’s jurisdiction is
governed by Article III, section 2, of the Constitution” (citing In
re Sealed Case, 310 F.3d 717, 731, 732 n.19 (Foreign Intel. Surv.
Ct. of Rev. 2002))).

67a

is not to be expanded by judicial decree.”18 A lower
federal court’s power to resolve legal disputes is
limited in at least three independent and equally
important ways.19 First, an action invoking our
“judicial Power” must involve a “Case[ ]” or
“Controversy]” within the meaning of Article III of
the Constitution20—a requirement that the Supreme
Court has defined through various jurisdictional
doctrines, such as standing, ripeness, mootness, and
the prohibition against advisory opinions. Second, the
action must arise under the Constitution, a law, or a
treaty, of the United States, “or fall within one of the
other enumerated categories of Article] III, § 2. ”21
Third, the action must be “described
by any

18 Kokkonen, 511 U.S. at 377 (citations omitted).
19 See Baker v. Carr, 369 U.S. 186, 198 (1962).
20 U.S. Const, art. Ill, § 2 (“The judicial Power shall extend to
all Cases, in Law and Equity, arising under this Constitution,
the Laws of the United Stat and Treaties made, or which shall be
made, under their Authority;—to all Cases affecting
Ambassadors, other public Ministers and Consuls;—to all Cases
of admiralty and maritime Jurisdiction; to Controversies to
which the United States shall be a Party;—to Controversies
between two or more States;—between a State and Citizens of
another State;—between Citizens of different States,—between
Citizens of the same State claiming Lands under Grants of
different States, and between a State, or the Citizens thereof, and
foreign States, Citizens or Subjects.”); see Doremus v. Bd. of Ed.
of Borough of Hawthorne, 342 U.S. 429, 434 (1952) (“[B]ecause
our own jurisdiction is cast in terms of ‘case or controversy,’ we
cannot accept as the basis for review, nor as the basis for
conclusive disposition of an issue of federal law without review,
any procedure which does not constitute [a true case or
controversy].”).
21 Baker, 369 U.S. at 198.

68a

jurisdictional statute”22 as the kind of action that
court’s
Congress intended to be subject to “a
adjudicatory authority.”23
It is this third limitation that is directly implicated
here. Because federal courts have an independent
duty to ensure that jurisdiction exists at all stages of
a case, and because we must determine that we have
jurisdiction before proceeding to the merits of a
claim,24 we firstaddress our own authority to consider
the Movants’ Petition.
I.
At the crux of the instant appeal is the question of
whether we have been authorized by Congress to
review the Movants’ First Amendment claim. In other
words, we must decide whether the Movants’ Petition
falls within the class of cases carefully delineated by
the FISA as within our authority as a court of
appellate review. We conclude that it does not.
We begin by recognizing the well-settled principle
that Congress has the exclusive authority to invest all
courts inferior to the Supreme Court “with jurisdiction
. . . in the exact degrees and character which to
Congress may seem proper for the public good.”25 As
22 Id.
23 Eberhart v. United States, 546 U.S. 12, 16 (2005) (quoting
Kontrick v. Ryan, 540 U.S. 443, 455 (2004)).
24 See Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 94
(1998) (“Jurisdiction is power to declare the law, and when it
ceases to exist, the only function remaining to the court is that of
announcing the fact and dismissing the cause.” (internal
quotation marks omitted)).
25 Ankenbrandt v. Richards, 504 U.S. 689, 698 (1992) (quoting
Cary v. Curtis, 44 U.S. 236, 245 (1845) (other citations omitted)).

69a

creatures of Congress, all courts inferior to the
Supreme Court, including our own, are empowered to
adjudicate only those disputes prescribed by Congress
in its “relevant jurisdictional statutes.”26 If a dispute
is not of the kind that Congress has determined should
be adjudicated, we “have no business deciding it, or
expounding the law in the course of doing so.”27 That
is especially so where it is clear from the text of the
relevant federal statute that Congress has considered
carefully the scope of the court’s jurisdiction.28
That is the case here. In comparison with other
federal courts, the nature of the FISC’s work is strictly
limited in scope. The FISC is tasked primarily with
“reviewing applications for surveillance and other
investigative activities relating to foreign intelligence
collection.”29 Equally limited, if not more so, is the
work of our Court of Review, which, like the FISC, is
“a unique court” within the federal judiciary and our
system of government.30

26 id.

27 DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 341 (2006)
(making the statement in the context of Article Ill’s case-orcontroversy requirement).
28 Cf. Nat. Res. Def. Council v. Nat’l Highway Traffic Safety
Admin., 894 F.3d 95, 107 (2d Cir. 2018) (“The Supreme Court has
made clear that, for a provision to define a federal court’s
jurisdiction, there must be a ‘clear statement’ from Congress to
that effect.” (quoting Sebelius v. Auburn Reg’l Med. Ctr., 568 U.S.
145, 153 (2013)).
29 In re Certification, 2018 WL 2709456, at *1.
30 Id.

70a

A.
The FISA clearly delineates the types of disputes
that fall within our appellate jurisdiction. Generally,
the statute provides for the creation of “a court of
review which shall have jurisdiction to review the
denial of any application made under this chapter [36
of Title 50 of the United States Code].31 More
specifically, the statute provides that the Court of
Review “shall have jurisdiction to consider” a petition
for review of a decision by the FISC32 on: (1) a FISA
“production”
or
“nondisclosure
order”;33
(2)
3! 50U.S.C. § 1803(b).
32 Id. § 1861(f)(3) (jurisdictional provision for appellate review
of FISA production and nondisclosure orders); id. § 1881a(i)(6)(A)
(jurisdictional provision for appellate review of a FISA directive);
id. § 1881a(j)(4)(A) (jurisdictional provision for
appellate
review of FISA certifications and procedures); id. § 1881b(f)(l)
(jurisdictional provision for appellate review of an order
approving the targeting of a United States person reasonably
believed to be located outside the United States for the
acquisition of foreign intelligence information utilizing means
that constitute electronic surveillance or the acquisition of stored
electronic data that requires an order under [Chapter 36 of Title
50], and conducted in the United States); id. § 1881c(e)(l)
(jurisdictional provision for appellate review of an order
approving the targeting of a United States person reasonably
believed to be located outside the United States for acquisitions
of foreign intelligence information utilizing other means).
33 A “production order” is “an order to produce any tangible
thing[, such as books, records, papers, and other items] under
[§ 1861],” which governs the access to certain business records
for
foreign
intelligence
and
international
terrorism
investigations. Id. § 1861(f)(1)(A). A “nondisclosure order” is “an
order imposed under [§ 1861(d)]” to prohibit the disclosure that
the Government has sought or obtained tangible things pursuant
to, for example, a production order. Id. § 1861(f)(1)(B). We note,
however, that many of the provisions in § 1861, including those
authorizing judicial review and nondisclosure orders, are no

71a

“directives” issued in writing by the Attorney General
and the Director of National Intelligence to an
“electronic communication service provider”;34 (3)
approving the “certification” and the
orders
“targeting, minimization, and querying procedures”
for “acquisitions” of non-United States persons
abroad;35 and (4) orders approving the targeting of
United States persons abroad to acquire foreign
intelligence information.36 The FISA also authorizes
our consideration of questions of law that are certified
by the FISC in certain circumstances.37
longer effective, as they were subject to certain amendments that
Congress allowed to expire on March 15, 2020. As a result, § 1861
now reads as it read on October 25, 2001. See Pub. L. 116-69,
Div. B, Title VII, § 1703(a), Nov. 21, 2019, 133 Stat. 1143
(providing that, effective March 15, 2020, with certain
exceptions, this section was amended to read as it read on
October 25, 2001).
34 A “directive” refers to a governmental instruction provided in
writing to an electronic communication service provider to
undertake certain actions relating to the acquisition of foreign
intelligence information under § 1881a(a). See id. § 1881a(i)(l).
And an “electronic communication service provider” refers to a
“telecommunications carrier,” “a provider of electronic
communication service,” “a provider of a remote computing
service,” “any other communication service provider who has
access to wire or electronic communications either as such
communications are transmitted or as such communications are
stored,” or “an officer, employee, or agent” of the aforementioned
entities. Id. § 1881 (b)(4).
35 See id. § 1881a(g)-(h) (explaining the requirements for a
“certification”); § 1881a(d)-(f) (defining the various “procedures”
for acquisitions under this subsection).
33 See id. § 1881b(f)(l); id. § 1881c(e)(l).
37 See id. § 1803(j) (providing in relevant part that the FISC
“shall certify for [our] review . . . any question of law that may
affect resolution of the matter in controversy that the court

72a

Furthermore, the FISA identifies the relevant
parties that are authorized to file a petition for review
in our Court. It makes clear, for example, that the
Government may file a petition for review of a decision
or order by the FISC with respect to each of the four
enumerated categories mentioned above.38 In addition
to the Government, the FISA also authorizes “any
person receiving” a production or nondisclosure
“order” (i.e., the first enumerated category),39 as well
as an “electronic communication service provider”
receiving a “directive” (i.e., the second enumerated
category),40 to file a petition for review.
There can be no question that the Movants’
Petition does not fallwithin any of the categories of
jurisdiction enumerated above. By the same token, it
is equally clear that the Movants are not one of the
petitioners authorized by Congress to seek review
before our Court. Instead, the Movants simply assert
a constitutional violation with respect to the
withholding of information that the Executive has
deemed classified and that is contained in FISC
opinions in closed cases-cases in which the Movants
were not a party. Although Congress has empowered
most other federal courts to consider claims arising

determines warrants such review because of a need for
uniformity or because consideration by [us] would serve the
interests of justice”).
38 See ante, note 32.
39 Id. § 1861(f)(3). A “person” is defined as “any individual,
including any officer or employee of the Federal Government, or
any group, entity, association, corporation, or foreign power.” Id.
§ 1801(m).
40 Id. § 1881a(i)(6)(A).

73a

under the federal Constitution,41 such as the Movants’
First Amendment claim, Congress did not do so here,
and, we are not awareof any statutory basis that can
support our jurisdiction over the Movants’ putative
appeal.
B.
The Movants contend that the statute that
establishes our Court, 50 U.S.C. § 1803(b), gives us
jurisdiction over their Petition. That statute
provides, in relevant part, that “[t]he Chief Justice [of
the United States] shall publicly designate three
judges, one of whom shall be publicly designated as
the presiding judge, . . . who together shall comprise a
court of review which shall have jurisdiction to review
the denial of any application made under this
chapter.”42 The Movants assert that their Motion is an
“application” that “arose under ‘this chapter’ because
the FISC was created by, and issues opinions
pursuant to authority it receives from, the [FISA]. ”43
The Movants misread the provision.
1.
The phrase “application made under this chapter”
in § 1803(b) generally refers to an application made by
the Government ex parte and in camera for foreign
intelligence surveillance. We reach this conclusion for
at least four reasons.
First, because we are a court of review, the term
“application” in § 1803(b) must be construed in light
of how the same term is used in the provision that
« See 28 U.S.C. § 1331.
42 50 U.S.C. § 1803(b) (emphasis added).
43 Movants’ Br. at 3.

74a

establishes the court that denies the applications that
we are authorized to review. Section 1803(a)(1)
provides for the creation of the FISC and states in
relevant part that the FISC “shall have jurisdiction to
hear applications for and grant orders approving
electronic surveillance.”44 Section 1803(a)(1) also
makes clear that if the FISC “denies an application for
an order authorizing electronic surveillance under this
chapter,” the FISC “shall provide immediately for
the record a written statement of each reason for [its]
decision and, on motion of the United States, the
record shall be transmitted, under seal, to the court of
review established in subsection (b).”45
Because § 1803(b) refers to the “review [of] the
denial of any application under this chapter”46 and the
FISC is authorized to deny the application in the first
instance, it follows that our court has jurisdiction to
review the denial of those applications that the FISC
has the authority to deny under § 1803(a)47—namely,
an application for “surveillance.”48 After all, the
44 50 U.S.C. § 1803(a)(1).
45 Id. (emphasis added).
46 Id. § 1803(b).
47 As the Movants concede, the FISC did not rely on any FISA
provision to establish its own jurisdiction over the Motion. To the
contrary, the FISC noted that the “Movants’ First Amendment
right of access claim falls outside the jurisdictional provisions” of
the FISA, including § 1803(a)(1). In re Bulk Collection, 2020 WL
897659, at *3 (relying instead on the doctrine of ancillary
jurisdiction).
48 By “surveillance,” we do not refer exclusively to “electronic
surveillance,” but also to the various investigative techniques
authorized under the FISA, including “physical searches.” In
other words, we use the term “surveillance “in the same manner
as it is used to identify chapter 36 of Title 50 of the United States

75a

“chapter” to which § 1803(b) refers is chapter 36 of
Title 50 of the United States Code, which is entitled
“Foreign Intelligence Surveillance.”
Second, as the text of § 1803(b) makes clear, our
Court can only review the “denial,” not the grant, of
an “application.”49 That limited authorization
reinforces our conclusion that the term “application”
refers to applications for surveillance, and not to any
request for relief relating to the FISC. Indeed,
Congress’s reason for authorizing reviewoniy in cases
where an “application” is denied by the FISC is clear
from the text and structure of the statute:
applications are made ex parte and in camera by the
Government. As a result, only the Government would
have the statutory right to appeal its denial. If the
application were granted, the Government would
have nothing to appeal.
Third, the use of the term “application” in another
subparagraph of § 1803, which authorizes the
appointment of an “amicus curiae,” further
demonstrates that the term “application” refers to an
application for surveillance under the FISA. Section
1803(i)(2)(A) requires the designation
of “an
individual ... to serve as amicus curiae to assist . . .
in the consideration of any application for an order or
review that, in the opinion of the [FISC or this Court],
presents a novel or significant interpretation of the
law, unless the [FISC or this Court] issues a finding
that such appointment is not appropriate.”50 In other
words, the FISA requires the appointment of an
Code.
« 50 U.S.C. § 1803(b).
50 50 U.S.C. § 1803(i)(2)(A) (emphasis added).

76a

amicus or a finding that the appointment is not
appropriate only where there is: (1) an “application
for an order” or an “application for ... review,” (2) that
“presents a novel or significant interpretation of the
law.”51
Section 1803(i)(2)(A) is premised on the principle
that, since the litigation involving an “application” for
electronic surveillance is ex parte, the FISC and this
Court could benefit from having someone who can
provide
an
independent
comment
on
the
Government’s asserted interest in intelligence
collection. Accordingly, that principle—namely, that
having an amicus could be beneficial in light of the ex
parte character of an application for electronic
surveillance-further reinforces our conclusion that the
term “application” in § 1803 refers to an application
for surveillance, and not just any request for relief
relating to the FISC.52 If the FISC or this Court needs
assistance from an amicus in resolving an issue of law
that does not involve an “application” for surveillance,
that designation could be made pursuant to §
1803(i)(2)(B)’s authorization to appoint an amicus
“in any instance [that the FISC or this Court] deems
51 Id. Such “application for an order or review” could include,
for example, the Government’s efforts to secure an order
approving the targeting of United States persons abroad to
acquire foreign intelligence information, see id. §§ 1881b, 1881c,
or to obtain the review and approval of “certification” and
“procedures” for “acquisitions” of non-United States persons
abroad, id. § 1881a.
52 For this same reason, the Movants’ argument that we are
required under § 1803(i)(2)(A) to designate an individual or
organization to serve as amicus curiae in this case, see Movants’
Br. at 2 n.l, lacks merit. Because the Movants’ Petition is not an
“application” subject to our review, the mandatory-appointment
requirement of § 1803(i)(2)(A) is not triggered here.

77a

appropriate or, uponmotion,” regardless of whether
it involves an “application” or not.53
Fourth, the term “application” is used in other
sections in chapter 36 also to refer to ex parte and in
camera applications made by the Government for
surveillance. For instance, § 1804 describes the
Government’s applications for an order by the FISC
approving electronic surveillance.54 And § 1823
describes the Government’s applications for an order
by the FISC approving physical searches.55
53 50 U.S.C. § 1803(i)(2)(B). Our earlier designation of Professor
Laura Donahue as amicus curiae in the case that certified the
question of the Movants’ Article III standing—a fact relied on by
the Movants in their brief, see Movants’ Br. at 2 n.l (citing Order
at 2, In re Certification, FISCR No. 18-01 (Foreign Intel. Surv.
Ct. of Rev. Jan. 9, 2018))—is consistent with our interpretation
of the text. That designation was made pursuant to § 1803(i),
which includes the discretionary appointment provision in
§ 1803(i)(2)(B).
We acknowledge that the FISC invoked§ 1803(i)(2)(A) to
appoint Professor Donahue to assist in its disposition of the
Movants’ Motion, see Order at 2, In re Bulk Collection, No. Misc.
13-08 (Foreign Intel. Surv. Ct. May 1, 2018). That single citation
of § 1803(i)(2)(A), however, does not undermine our foregoing
analysis of the text and structure of the FISA. To be sure, the
citation was likely inadvertent in light of the fact that the FISC
did not conclude that the Movants’ Motion was an “application”
for purposes of § 1803 and, instead, relied on the doctrine of
ancillary jurisdiction to adjudicate the merits of the Movants’
claim. And, to be sure, the same appointment could have been
made by the FISC pursuant to § 1803(i)(2)(B), so there was
nothing improper about the FISC’s designation of Professor
Donahue in that instance.
54 See 50 U.S.C. § 1804 (entitled “Applications for Court Orders”
relating to electronic surveillance).
55 See id. § 1823 (entitled “Application for Court Order” relating
to physical searches).

78a

2.
By contrast, the Movants’ reading of § 1803(b)
produces at least three untenable consequences. First,
under the Movants’ reading, the Court of Review
would be empowered to review rulings on the merits
that the FISC would not be empowered to make. The
Movants argue that although the statute that
establishes the FISC, § 1803(a)(1), authorizes that
court to adjudicate only applications for electronic
surveillance, the statute that establishes this Court, §
1803(b), authorizes our review of any request for relief
that relates to the FISC or the FISA.56 In other words,
the Movants suggest that while the FISA authorizes
the FISC to undertake the limited task of considering
applications for surveillance, the FISA authorizes our
Court to undertake the comparatively broader task of
reviewing the denial of any request for relief relating
to the FISC or the FISA—including a request that the
FISC would lack the statutory authority to deny,
whatever the request may be. This creates an
anomalous situation: our reviewing authority under
the FISA would exceed the FISC’s adjudicatory
authority under the same statute, turning our court
into something more than just a specialized court of
review.
Second, under the Movants’ reading, other
provisions in § 1803 would be rendered meaningless.
For example, the FISA requires an amicus designated
56 See Movants’ Br. at 3 (noting that the statute specifying the
FISC’s jurisdiction refers to “applications for electronic
surveillance,” whereas the statute specifying the Court of
Review’s jurisdiction refers to “any application” made under the
FISA, which includes a request for “access to FISC opinions”
given that the “FISC was created by, and issues opinions
pursuant to authority it receives from, the [FISA]”).

79a

by the FISC or our Court to have access to “any legal
precedent, application, certification, petition, motion,
or such other materials that the court determines are
relevant to the duties of the amicus curiae.”57 If the
Movants’ Motion to the FISC or the Petition to our
Court were considered an “application” for purposes
of § 1803, as the Movants contend, then Congress
would not have identified the term “ application” as a
separate category from other terms like “petition” or
“motion.” Only by interpreting the term “application”
as we do, could terms like “petition” and “motion”
preserve their ordinary meaning.
. Third, under the Movants’ reading, some, if not all,
of the specific jurisdictional bases provided in the
FISA also would be rendered meaningless or
superfluous. In fact, it would make little sense for
Congress to carefully delineate specific types of
decisions that could be appealed by carefully
delineated parties—as it did in sections 1861, 1881a,
1881b, and 1881c58—if any other person could appeal
the denial of any request that relates to the FISC or
the FISA.
C.
The Movants also argue that “Article III appellate
multiple
procedural
courts [have] fashioned
for non-parties to assert their
mechanisms
constitutional access right in the first instance and to
later obtain appellate review.”59 One of those

57 50 U.S.C. § 1803(i)(6)(A)(i).
58 See ante, note 32.
59 Movants’ Br. at 5 (identifying “direct intervention,”
“collateral order doctrine,” and the “writ of mandamus” as
examples of procedural mechanisms used to consider claims for

80a

mechanisms is the “collateral order doctrine, which
has supplied authority to entertain appeals in other
public access cases in the federal appellate courts.”60 In
those cases, the doctrine was invoked to review an
interlocutory order disposing of an important
collateral issue prior to the final resolution of the
case—e.g., access to records in an ongoing criminal
case.61
That doctrine has no application here. Among
other things, there is no question that the nonspecialized federal courts of appeals have jurisdiction
over appeals of final and interlocutory decisions by
district courts,62 which are, in turn, empowered to
consider claims arising under the First Amendment to
the Constitution.63 That is not true of specialized
courts like the FISC or our Court.64 The collateral
order doctrine, or any other judicially-created
procedural mechanism, cannot be used to
access to records in criminal cases) (collecting cases).
60 Id. at 4 (collecting cases).
61 See, e.g., In re N.Y. Times Co., 828 F.2d 110, 113 (2d Cir. 1987)
(explaining that the collateral order doctrine applied “since
deferral of a ruling on appellants’ claims until a final judgment
in the underlying criminal prosecution is entered would
effectively deny appellants much of the relief they seek, namely,
prompt public disclosure of the motion papers”).
62 See 28 U.S.C. § 1291 (“Final Decisions”), id. § 1292
(“Interlocutory Orders”).
63 See id. § 1331 (“Federal-Question Jurisdiction”).
64 Our Court is not a “court of appeals” for purposes of 28 U.S.C.
§ 1291, which is the subject of the collateral order doctrine. Cf.
50 U.S.C. 1803(k)(l) (providing that the Court of Review is a
“court of appeals” for purposes of 28 U.S.C. § 1254, which
authorizes review of a case by the Supreme Court by writ of
certiorari or certification).

81a

manufacture subject matter jurisdiction where none
exists.
II.
To salvage their Petition, the Movants invoke the
common-law doctrine of ancillary jurisdiction as an
alternative jurisdictional basis for our review of the
dismissal of their Motion. Under that discretionary
doctrine, “a federal court may exercise ancillary
jurisdiction ‘(1) to permit disposition by a single court
of claims that are, in varying respects and degrees,
factually interdependent; and (2) to enable a court to
function successfully, that is, to manage its
proceedings, vindicate its authority, and effectuate its
decrees.’”65 This “ancillary” common-law authority,
while not necessarily confirmed or conferred by
Congress,66 is said to be inherent in the courts’ judicial
power derived from Article III of the Constitution.67
But because this authority lacks an explicit statutory
basis and is therefore “shielded from direct democratic
controls,” the Supreme Court repeatedly has warned
the inferior courts that this authority “must be

65 Peacock v. Thomas, 516 U.S. 349, 354 (1996) (quoting
Kokkonen, 511 U.S. at 379—80).
66 To be sure, “Congress codified much of the common-law
doctrine of ancillary jurisdiction as part of supplemental
jurisdiction’ in 28 U.S.C. § 1367.” Peacock, 516 U.S. at 354 n.5.
67 See United States v. Hudson, 11 U.S. 32, 34 (1812) (“Certain
implied powers must necessarily result to our Courts of justice
from the nature of their institution.”); accord Roadway Exp., Inc.
v. Piper, 447 U.S. 752, 764 (1980) (“The inherent powers of
federal courts are those which ‘are necessary to the exercise of all
others.” (quoting Hudson, 11 U.S. at 34)); see also Chambers v.
NASCO, Inc., 501 U.S. 32, 58 (1991) (Scalia, J., dissenting).

82a

exercised with restraint and discretion,”68 and with
“great caution.”69
In the circumstances presented here, we decline to
rely on any “ancillary” authority to consider the
Movants’ Petition. As a Court of Review of
significantly limited powers carefully delineated by
Congress, we are especially reluctant—“cautio[us]” in
the admonition of the Supreme Court70—to consider
issues beyond our jurisdictional competence on the
basis of a doctrine “that can hardly be criticized for
being overly rigid or precise.”71 The Movants’ Petition
simply does not present a circumstance that warrants
the exercise of our discretionary, ancillary authority.
The Movants have not been haled into court against
their will, nor do they seek to assert rights in an
ongoing action.72 Nor is this an instance in which the
application of our inherent judicial power is
appropriate, let alone “necessary,” to enforce one of
our own mandates or orders,73 or to protect the
68 Roadway Exp., 447 U.S. at 764.
69 Ex parte Burr, 22 U.S. 529, 531 (1824).
™ Jd.
71 Kokkonen, 511 U.S. at 379.
72 Owen Equip. & Erection Co. v. Kroger, 437 U.S. 365,376
(1978) (“[AJncillary jurisdiction typically involves claims by a
defending party haled into court against his will or by another
person whose rights might be irretrievably lost unless he could
assert them in an ongoing action in a federal court.”); accord
Peacock, 516 U.S. at 355.
73 Hudson, 11 U.S. at 34 (“To fine for contempt—imprison for
contumacy—inforce the observance of order, &c. are powers
which cannot be dispensed with in a Court, because they are
necessary to the exercise of all others . . . .”); cf. Young v. United
States ex rel. Vuitton et Fils S.A., 481 U.S. 787, 795-801 (1987)
(recognizing the courts’ inherent authority to appoint private

83a

integrity of our own proceedings and processes.74
Accordingly, we do not consider here, let alone decide,
questions that the Movants fear would not be
reviewableif their Motion were dismissed-sanctions
imposed by the FISC against “government officials for
misconduct,” or findings “of contempt” by the
Government or by electronic communication service
providers,75 both of which are much more consistent
with the inherent authority recognized by the doctrine
of ancillary jurisdiction.
Rather, here, the Movants filed a motion in a new
“miscellaneous” case76 seeking the disclosure of non­
public material which has been deemed classified by
the Executive Branch and to which the Movants have
not established a factual connection.77 Because the
counsel to investigate and initiate contempt proceedings for
violation of an order); Young, 481 U.S. at 819—20 (Scalia, J.,
concurring in judgment) (noting that a court’s inherent powers
include only those “necessary to permit the courts to function”
(emphasis added)).
74 Cf. Chambers, 501 U.S. at 44-45 (explaining that among the
various powers of a federal court is the power “to vacate its own
judgment upon proof that a fraud has been perpetrated upon the
court,” to “bar from the courtroom a criminal defendant who
disrupts a trial,” and “to fashion an appropriate sanction for
conduct which abuses the judicial process” (collecting cases)).
75 Movants’ Br. at 4.
76 In re Bulk Collection, No. Misc. 13-08.
77 To clarify, we do not consider or decide here whether the
Movants have a cause of action in a federal district court against
an executive agency for the disclosure of the relevant non-public
material that the Executive Branch has determined to be
classified. We note that the Government has acknowledged that
the Freedom of Information Act, 5 U.S.C. § 552, may provide for
judicial review of a claim seeking access to such material. See
Government’s Br. at 10.

84a

crux of the Movants’ claim to disclosure here lies
within the Executive’s clear authority to determine
what material should remain classified, we recall the
Supreme Court’s admonition that “[b]ecause of their
very potency, inherent powers must be exercised with
restraint and discretion.”78
In the absence of a clear grant of reviewing
authority in the FISA or a need to protect the integrity
of our own judicial processes, respect for the
separation of powers dictates that we dismiss the
Petition for lack of jurisdiction, as we “have no
business deciding” the merits of the Movants’
constitutional claim.79
III.
Perhaps recognizing that the FISA does not
authorize their Petition for Review in this instance,
the Movants also characterize their Petition as one
seeking, in the alternative, the extraordinary writ of
mandamus. This alternative effort to establish
jurisdiction fares no better.
The common-law writ of mandamus directed at a
lower court is codified in the All Writs Act80and in our
Rules of Procedure.81 The writ is “a ‘drastic and
extraordinary’
remedy
‘reserved
for
really
78 Chambers, 501 U.S. at 44 (citing Roadway Exp., 447 U.S. at
764).
79 Cuno, 547 U.S. at 341.
80 “The Supreme Court and all courts established by Act of
Congress may issue all writs necessary or appropriate in aid of
their respective jurisdictions and agreeable to the usages and
principles of law.” 28 U.S.C. § 1651(a) (emphasis added).

81 “All writs that may be issued by United States courts of
appeals shall be available to the FISCR.” FISCR. Proc. 8.

85a

extraordinary causes.”’82 And “only exceptional
circumstances amounting to a judicial usurpation of
power, or a clear abuse of discretion will justify the
invocation of this extraordinary remedy”83for the
purpose of confining a lower court “to a lawful exercise
of its prescribed jurisdiction. ”84
In the nature of things, the writ is available only
to assist an existing basis for jurisdiction. Indeed, “the
action must . . . involve subject matter to which our
appellate jurisdiction could in some manner, at
sometime, attach,” and to which “the issuance of the
writ might assist.”85 The Movants recognize this point
by conceding that the “All Writs Act does not provide
‘an independent grant of appellate jurisdiction,’” and
that “courts may only consider mandamus petitions if
‘an independent statute . . . grants [the court]
jurisdiction.’”86 But as noted, the Movants have not
identified an independent basis for subject matter
jurisdiction over their Petition.87 And our Rules of
82 Cheney v. U.S. Dist. Court for D.C., 542 U.S. 367, 380 (2004)
(quoting Ex parte Fahey, 332 U.S. 258, 259—60 (1947)).
83 Id. (internal quotation marks and citations omitted).
Id. (quoting Roche v. Evaporated Milk Ass’n, 319 U.S. 21, 26
(1943)).
84

85 United States v. Christian, 660 F.2d 892,894 (3d Cir. 1981)
(quoting United States v. RMI Co., 599 F.2d 1183, 1186 (3d Cir.
1979)); accord Ortiz v. United States, 138 S. Ct. 2165, 2173 (2018)
(citing Marbury v. Madison, 5 U.S. 137, 175 (1803)); In re Al
Baluchi, 952 F.3d 363, 367-68 (D.C. Cir. 2020).
86 Movants’ Br. at 8 (quoting In re al-Nashiri, 791 F.3d 71, 7576 (D.C. Cir. 2015) (internal citations and quotation marks
omitted)).
87 The Movants cite two other provisions of the FISA to assert
that we have subject matter jurisdiction to consider their
mandamus petition: (1) § 1803(g)(1), which authorizes the court

86a

Procedure, which are said to authorize the issuance
of the writ by impliedly referring to the All Writs
Act,88 certainly do not provide that jurisdictional
basis.
In sum, we lack jurisdiction to grant the
extraordinary relief that the Movants request.
CONCLUSION
As Judge Collyer aptly observed in an earlier
proceeding, our faithful adherence to Congress’s
limited mandate requires that we decline the
Movants’ invitation to “expand [our own] jurisdiction”
in a way that is contrary to so many “statutory
provisions that limit [our] jurisdiction to a specialized
area
of national
concern,”89—that
is,
the
to establish rules and procedures and to “take such actions. . . as
are reasonably necessary to administer [its] responsibilities
under this chapter [36]”; and (2) § 1803(j), which establishes a
certification procedure for certain questions of law and which the
FISC invoked to ask this Court to answer the question relating
to the Movants’ Article III standing. See Movants’ Br. at 9.
Neither section provides an independent basis for subject
matter jurisdiction in this instance. Section 1803(g)(1), by its own
terms, does not create subject matter jurisdiction over any kind
of case, let alone over an action involving a party that has not
received any FISA process. And § 1803(j) only authorizes the
FISC to certify certain questions of law to our Court; it does not
create an independent basis of reviewing authority over cases
that fall outside of our own subject matter jurisdiction. Even if it
did, the Movants have not relied upon the certification procedure
in this case. To be sure, when we accepted the FISC’s certification
relating to the Movants’ Article III standing, we only agreed to
answer the question certified to us and specifically refused to
consider if there was subject matter jurisdiction over the Motion.
See In re Certification, 2018 WL 2709456, at *7.
88 See ante, note 81.
89 In re Opinions & Orders, 2017 WL 5983865, at *21 (Collyer,

87a

of
“governmental
electronic
surveillance
communications for foreign intelligence purposes. ”90
Because the Movants’ Petition falls outside of the
class of cases that Congress carefully identified as
being subject to our reviewing authority, the March
10, 2020 Petition is DISMISSED for lack of
jurisdiction.

P.J., dissenting).
90 Clapper v. Amnesty Int’l USA, 568 U.S. 398, 402 (2013).

88a

APPENDIX E
UNITED STATES
FOREIGN INTELLIGENCE SURVEILLANCE
COURT
WASHINGTON, D.C.
IN RE OPINIONS & ORDERS OF THIS COURT
ADDRESSING BULK COLLECTION OF DATA
UNDER THE FOREIGN INTELLIGENCE
SURVEILLANCE ACT
Docket No. Misc. 13-08
[Filed February 11, 2020]
OPINION
Before the Court is the Motion of the American
Civil Liberties Union, the American Civil Liberties
Union of the Nation’ s Capital, and the Media
Freedom and Information Access Clinic for the
Release of Court Records.1 The Movants ask the Court
to “unseal its opinions addressing the legal basis for
the ‘bulk collection’ of data” under the Foreign
Intelligence Surveillance Act of 1978, codified as
1 Hereinafter, this motion will be referred to as the “Motion for
the Release of Court Records” and cited as “Mot. for Release of
Ct. Records.” The American Civil Liberties Union (“ACLU”), the
American Civil Liberties Union of the Nation's Capital (“ACLUNC”), and the Media Freedom and Information Access Clinic
(“MFIAC”) will be referred to collectively as “the Movants.”
Documents submitted by the parties and orders and opinions of
the Court in this matter are available on the Court’s public
website at http://www.fisc.uscourts.gov/public-filings.

89a

amended at 50 U.S.C. §§ 1801—1885c (“FISA”) on the
asserted ground that “these opinions are subject to
the public’s First Amendment right of access, and no
proper basis exists to keep the legal discussion in
these opinions secret.” Mot. for Release of Ct. Records
at 1. In fact, however, the four opinions responsive to
the Movants’ claim have never been subject to a
sealing order issued by the Foreign Intelligence
Surveillance Court (FISC). Moreover, the Executive
Branch has declassified those opinions in substantial
part and each of them has been made public by the
Executive Branch or the FISC. Consequently, what
the Movants now seek is access to the redacted, non­
public material withinthose opinions, which remains
classified by the Executive Branch.
Procedural Background.

I.

The Movants filed the pending motion on
November 7, 2013, in the wake of widely-publicized
disclosures about the bulk collection of data by the
United States government under FISA. Mot. for
Release of Ct. Records at 1-4. The four opinions that
address the legal basis for bulk collection under FISA
were made public in 2013 and 2014 after classification
reviews conducted by the Executive Branch and
subject to redaction of text containing information
that the Executive Branch found to be classified. The
United States’ Opposition to the Motion of the ACLU
for the Release of Court Records at 1-2 (“Gov’t Opp’n
Br.”). Before the filing of the Motion for the Release of
Court Records, the FISC had published two of those
opinions pursuantto FISC Rule of Procedure 62(a):
•

Memorandum, In re Application of the Federal
Bureau of Investigation for an Order Requiring
the Production of Tangible Things From

90a

[Redacted], No. BR 13-158 (Oct. 11, 2013)
(McLaughlin,
at http://
available
J-),
www.fisc.uscourts.gov/sites/default/files/BR%2
013-158%20Memorandum-l.pdf; and
•

Amended Memorandum Opinion, In re
Application of the Federal Bureau of
Investigation for an Order Requiring the
Production of Tangible ThingsFrom [Redacted],
No. BR 13-109 (Aug. 29, 2013) (Eagan, J.),
available
at https://www.fisc.uscourts.gov/
sites/default/files/BR%2013-109%200rderl.pdf.

Id.
The other two opinions were released by the
Executive Branch:
•

Opinion and Order, [Redacted], No. PR/TT
[Redacted] (Kollar-Kotelly, J.), available at
https://www.odni.gov/files/documents/1118/CL
EANEDPRTT%201.pdf; and

•

Memorandum Opinion, [Redacted], No. PR/TT
[Redacted] (Bates, J.), https://www.dni.gov/files
/documents/1118/CLEANEDPRTT%202.pdf.

Id.2

2 Those opinions concerned the production of tangible things
under 50 U.S.C. § 1861 or the installation and use of pen
register/trap-and-trace (PR/TT) devices under § 1842. Congress
has since amended §§ 1861 and 1842 to require use of “specific
selection terms,” thereby eliminating bulk collection under those
provisions. See USA FREEDOM Act of 2015, Pub. L. 114—232 §
101(a), 129 Stat. 269-70 (codified at § 1861(b)(2)(C)); § 101(b), 129
Stat. 270 (codified at § 1861 (c)(2)(F)(iii)); § 103, 129 Stat. 272
(codified at § 1861(b)(2)(A) & (c)(2)(A), (3)); § 107, 129 Stat. 27375 (codified at § 1861(k)(4)); § 201, 129 Stat. 277 (codified at §§

91a

On January 25, 2017, the undersigned judge
dismissed the pending motion on the ground that the
Movants lacked standing under Article III of the
Constitution to bring a claim based on a First
Amendment right of public access. In re Opinions &
Orders of this Court Addressing Bulk Collection of
Data Under FISA, 2017 WL 427591 (FISA Ct. Jan. 25,
2017). The FISC, sitting en banc, reconsidered that
dismissal sua sponte and issued an opinion on
November 9, 2017, which held by a 6-5 vote that
Article Ill’s standing requirement was satisfied. In re
Opinions & Orders of this Court Addressing Bulk
Collection of Data Under FISA, 2017 WL 5983865
(FISA Ct. Nov. 9, 2017) (en banc). The en banc FISC
vacated the January 25, 2017 opinion and remanded
the matter to the undersigned judge for further
consideration. Id at 9.
On January 5, 2018, however, the FISC certified
the question of Movants’ Article III standing to the
Foreign Intelligence Surveillance Court of Review
(FISCR) pursuant to 50 U.S.C. § 1803(j) “because
review by the FISCR would serve the interests of
justice, a dispositive issue about standing was
involved, and the split among the FISC Judges was
very close and involved a difference of opinion about
the law to apply, among other considerations.” In re
Opinions & Orders of this Court Addressing Bulk
Collection of Data Under FISA, 2018 WL 396244 at *1
(FISA Ct. Jan. 5, 2018). The FISCR accepted the
certification on January 9, 2018, and appointed
Professor Laura K. Donohue to serve as amicus
curiae. In re Certification of Questions of Law to the
FISCR, 2018 WL 2709456 at *1, 3 (FISA Ct. Rev. Jan.
1841(4), 1842(c)(3)).

92a

9, 2018) (per curiam). On March 16, 2018, the FISCR
held that the Movants meet the requirements for
standing under Article Ill. Id. at *4-7. The FISCR did
not decide whether the FISC had subject matter
jurisdiction or reachthe merits of Movants’ claim. Id.
at *3-4.
Upon remand, the undersigned judge entered an
order scheduling briefing on whether the Court has
subject matter jurisdiction over the Movants’ claim
and appointing Professor Donohue to contribute to
that briefing as amicus curiae. Appointment of
Amicus Curiae and Briefing Order, No. Misc. 13-08
(May 1, 2018). The Court is grateful to Professor
Donohue for her able assistance.
The Court has fully considered the submissions of
the parties and amicus. For the reasons stated below,
the Court finds that (1) it has subject matter
jurisdiction over the Motion for the Release of Court
Records; and (2) the First Amendment does not confer
a qualified rightof public access to the material sought
by the Movants, nor is there reason for the Court to
exercise any discretion it may have to grant the relief
requested. The Motion for the Release of Court
Records accordingly will be denied and the motion will
be dismissed.
II.

THE COURT HAS SUBJECT MATTER
JURISDICTION OVER THE MOVANTS’
CLAIM.

“Federal courts are courts of limited jurisdiction.
They possess only that power authorized by
Constitution and statute, which is not to be expanded
by judicial decree. It is to bepresumed that a cause
lies outside this limited jurisdiction.” Kokkonen u.
Guardian Life Ins. Co. of America, 511 U.S. 375, 377
93a

(1994) (citations omitted). The FISC is a federal court
with specialized jurisdiction concerning applications
and certifications filed by the government andrelated
to the collection of foreign intelligence. 50 U.S.C.
§§ 1803(a)(1), 1822 (c), 1842(b)(1) and (d)(1),
1861(b)(1)(A) and (c)(1), 1881a(i), 1881b(a), 1881c(a),
and 1881d(a).
Although Movants’ First Amendment right of
access claim falls outside the jurisdictionalprovisions
noted above, Movants assert that the FISC has subject
matter jurisdiction over the claim pursuant to the
FISC’s inherent authority over its own records and as
ancillary to its jurisdiction over the applications and
proceedings which resulted in the opinions to which
Movants seek access. See Movants’ Opening Brief in
Response to the Court’s Order of May 1, 2018 at 4—12
(“Movants’ Br.”). Amicus asserts that adjudication of
the Movants’ claim, is within the “essential inherent
power” conferred by Article III of the Constitution. See
Brief of Amicus Curiae at 18—24 (“Amicus Br.”). The
government argues that the FISC has no jurisdiction
to adjudicate Movants’ claim because it falls outside
its statutory grant of subject matter jurisdiction and
is not covered by the doctrine of ancillary jurisdiction.
See United States’ Response Brief Regarding Subject
Matter Jurisdiction at 7—11 (“Gov’t Resp. Br.”). For
the reasons discussed below, the Court finds that it
has ancillary jurisdiction over Movants’ claim.
The Supreme Court has recognized the authority
of federal courts to exercise ancillary jurisdiction over
claims outside their statutory grant for two purposes:
“(1) to permit disposition by a single court of claims
that are, in varying respects and degrees, factually
interdependent; and (2) to enable a court to function
successfully, that is, to manage its proceedings,
94a

vindicate its authority, and effectuate its decrees.”
Kokkonen, 511 U.S. at 379-80 (reversing the district
court’s enforcement of a settlement agreement, which
arose from a lawsuit previously before the court, as
“quite remote from what courts require in order to
perform their function”) (citations omitted).
In Chambers v. NASCO, Inc., 501 U.S. 32 (1991),
the Supreme Court summarized the roots of the
authority that came to be described in Kokkonen's
second prong:
It has long been understood that
“[cjertain
implied
powers
must
necessarily result to our Courts of justice
from the nature of their institution,”
powers “which cannotbe dispensed with
in a Court, because they are necessary to
the exercise of all others.” United States
v. Hudson, 7 Cranch 32, 34, 3 L. Ed. 259
(1812); see also Roadway Express, Inc. v.
Piper, 447 U.S. 752, 764, 100 S. Ct.
2455, 2463, 65 L.Ed.2d 488 (1980) (citing
Hudson). For this reason, “Courts of
justice are universally acknowledged to
be vested, by their very creation, with
power to impose silence, respect, and
decorum, in their presence, and
submission to their lawful mandates.”
Anderson v. Dunn, 6 Wheat. 204, 227, 5
L. Ed. 242 (1821); see also Ex parte
Robinson, 19 Wall. 505,510, 22 L. Ed.
205 (1874). These powers are “governed
not by rule or statute but by the control
necessarily vested in courts to manage
their own affairs so as to achieve the
orderly and expeditious disposition of
cases.” Link v. Wabash R. Co., 370 U.S.
95a

626, 630-631, 82 S. Ct. 1386, 1388-1389,
8 L.Ed.2d 734 (1962).
Chambers, 501 U.S. at 43.
As an Article III court, see In re Certification of
Questions of Law to FISCR, 2018 WL 2709456 at *4,
citing In re Sealed Case, 310 F.3d 717, 731, 732 n.19
(FISA Ct. Rev. 2002) (per curiam), the FISC possesses
the same inherent authority recognized in Chambers
and Kokkonen,3 Whether the FISC has ancillary
jurisdiction to adjudicate the Movants’ claim therefore
depends on whether the exercise of such jurisdiction is
necessary to its successful functioning.
The supervisory power courts hold over their own
records is well-established. See Nixon v. Warner
Commons, Inc., 435 U.S. 589, 598 (1978) (“Every court
has supervisory power over its own records and
files”); Gambale v. Deutsche Bank AG, 377 F.3d 133,
141 (2d Cir. 2004) (“The court’s supervisory power
does not disappear because jurisdiction over the
relevant controversy has been lost. The records and
files are not in limbo. So long as they remain under
the aegis of the court, they are superintended by the
judges who have dominion over the court.”).
In managing their proceedings and records,
federal courts must observe constitutional rights. See,
3 This principle is reflected in certain provisions of the FISC’s
statutory mandate. See 50 U.S.C. § 1803(g)( I) (“The [FISC and
FISC Court of Review] may establish such rules and
procedures, and take such actions, as are reasonably necessary
to administer their responsibilities under this [Act].”); §1803(h)
(“Nothing in this [Act] shall be construed to reduce or contravene
the inherent authority of [the FISC] to determine or enforce
compliance with an order or rule of such court or with a procedure
approved by such court.”).

96a

e.g., Doe v. Pub. Citizen, 749 F.3d 246, 253 (4th Cir.
2014) (finding district court’s sealing order violated
the public’s right of access under the First
Amendment and remanding with instructions to
unseal the record); In re Providence Journal Co., 293
F.3d 1, 11-13 (1st Cir. 2002) (exercising advisory
mandamus to resolve novel issues of great public
importance and finding district court’s practice of
refusing to place legal memoranda on file in clerk’s
office violated First Amendment); Brown &
Williamson Tobacco Corp. v. F.T.C., 710 F.2d 1165,
1177, 1180-81 (6th Cir. 1983) (stating “the First
Amendment and the common law do limit judicial
discretion” and vacating district court’s order sealing
record of Federal Trade Commission proceeding for
failing to state findings or conclusions justifying
nondisclosure to public).
The manner in which the FISC manages its
proceedings is also constrained by statute. FISA
requires the FISC to adhere to specified security
procedures:
The record of proceedings under this
[Act], including applications made and
orders granted, shall be maintained
under security measures established by
the Chief Justice [of the United States]
in consultation with the Attorney
General and the Director of National
Intelligence.
50 U.S.C. § 1803(c). The security measures
established by the Chief Justice in accord with Section
1803(c) provide:
Court Proceedings. The court shall
ensure that all court records (including

97a

notes, draft opinions, and related
materials)
that contain classified
national security information are
maintained according to applicable
Executive Branch security standards for
storing and handling classified national
security information. Records of the
court shall not be removed from its
premises except in accordance with the
Act, applicable court rule, and these
procedures.
Security Procedures Established Pursuant to Public
Law No. 95-511, 92. Stat. 1783, as Amended, By the
Chief Justice of the United States for the Foreign
Intelligence Surveillance Court and the Foreign
Intelligence Surveillance Court of Review, ^[7 (2013)
(“FISC Security Procedures”).
To meet this responsibility, the FISC adopted rules
of procedure which regulate how it handles and
maintains national security information. See, e.g.,
FISA Ct. R. Proc. 3 (“In all matters, the Court and its
staff shall comply with the security measures
established pursuant to 50 U.S.C. §§ 1803(c), 1822(e),
1861(f)(4), and 1881a(k)(l), as well as Executive Order
13526, ‘Classified National Security Information’ (or
its successor)”); FISA Ct. R. Proc. 62(b) (“Except when
an order, opinion, or other decision is published or
provided to a party upon issuance, the Clerk may not
release it, or other related record, without a Court
order. Such records must be released in conformance
with the security measures referenced in Rule 3.”).
Rule 62(b) limits public access to FISC opinions by
prohibiting release by the Clerk of Court to anyone
other than the government at time of issuance unless
specifically authorized by Court order. These

98a

restrictions endure unless release is ordered by the
Court, regardless of the status of the underlying
matter.
The Supreme Court has recognized a First
Amendment right of public access to some judicial
proceedings. See, e.g., Press-Enter. Co. v. Super. Ct.,
478 U.S. 1 (1986) {‘Press-Enterprise IT); Globe
Newspaper Co. v. Super. Ct. for Norfolk Cnty., 457
U.S. 596 (1982). When a claimant asserts that right of
access with respect to the proceedings or documents of
a federal court established under Article III, it is
necessary for that court to be able to adjudicate the
claim, lest its own actions violate the First
Amendment.4 In this case, the FISC’s statutory
obligation to maintain its records securely
underscores the need for it to be able to adjudicate
Movants’ claim. In seeking access to certain FISC
opinions, Movants posit a FirstAmendment right that
may conflict with the above-described security
procedures, which arerequired by statute and effected
through the FISCs rules. The FISCR has found
4 Moreover, adjudicating such claims may involve factual issues
which are best assessed by the court whose proceedings or
records are at issue. See, e.g., Globe Newspaper, 457 U.S. at 606OS (First Amendment challenge to closure of a criminal trial
during testimony of a minor victim of a sexual offense required
trial court to assess factors such as victim’s “psychological
maturity and understanding” and “the interests of parents and
relatives”); United States v. Wecht, 537 F.3d 222, 239-42 (3d Cir.
2008) (First Amendment challenge to withholding names of
jurors from the public in a criminal trial required district court
to evaluate whether risks to jurors were “serious and specific”);
Oregonian Pub. Co. v. U.S. Dist. Court, 920 F.2d 1462, 1467 (9th
Cir. 1990) (First Amendment challenge to sealing of plea
agreement required district court to evaluate “evidentiary
support” forcontention that exposure of defendant’s cooperation
with law enforcement would threaten his and his family’s safety).

99a

Movants’ claim to be judicially cognizable. In re
Certification of Questions of Law to FISCR, 2018 WL
2709456 at *7. If Movants’ claim has merit, the First
Amendment may require modification to the manner
in which the FISC maintains its opinions.5 It is
necessary, therefore, for the FISC to adjudicate
Movants’ claim in order to ensure that its proceedings
comport with a correct understanding of both the First
Amendment and statutorily required security
procedures. The FISC’s ability to “function
successfully”
and “manage its proceedings,”
Kokkonen, 511 U.S. at 379-80, would be significantly
compromised if it lacked authority to adjudicate First
Amendment claims such as the one asserted by
Movants.
The fact that Congress has conferred on the FISC
subject matter jurisdiction over a narrow range of
matters, in comparison with the jurisdiction of federal
district courts, does not detract from the grounds for
finding ancillary jurisdiction. The “doctrine of
ancillary jurisdiction . . . recognizes federal courts’
jurisdiction over some matters (otherwise beyond
their competence) that are incidental to other matters
properly before them.” Kokkonen, 511 U.S. at 378
(emphasis added). Other specialized courts of law have
recognized their authority to decide Constitutionbased claims related to their own proceedings, despite
not having original jurisdiction over claims “arising
5 It must be noted that this Court’s authority to decide the
instant matter does not depend on the merits. See Steel Co. v.
Citizens for a Better Env’t, 523 U.S. 83, 89 (1998) (“It is firmly
established in our cases that the absence of a valid (as opposed to
arguable) cause of action does not implicate subject-matter
jurisdiction, i.e.,the courts’ statutory or constitutional power to
adjudicate the case.”).

100a

under the Constitution,” as conferred upon federal
district courts by 28 U.S.C. § 1331. See In re
Symington, 209 B.R. 678, 691-92 (1997) (“This Court
unquestionably has subject matter jurisdiction over
[news companies’ motion to intervene and strike
protective order keeping debtor records private] ....
As long as a protective order remains in effect, the
court that entered the order retains the power to
modify it. . .”) (citations omitted).6 See also Dacoron u.
Brown, 4 Vet. App 115, 119 (1993) (“[Njothing in the
above analysis [recognizing district court jurisdiction
over Constitutional claims] implies that this Court
does not have power to review claims pertaining to the
constitutionality of statutory and regulatory
provisions. Such authority is inherent in the Court’s
status as a court of law, and is expressly provided in
38 U.S.C. § 7261(a)(1) . . .”) (citationsomitted).
The government suggests that the FISC lacks
jurisdiction over Movants’ claim because the opinions
to which Movants seek access were not issued in
proceedings currentlybefore the FISC. See Gov’t Resp.
Br. at 9-11 (contrasting Movants’ claim seeking
“documents from other cases” with claims relating to
unlawful disclosure of information “in ongoing . . .
actions pending in district court” and “efforts to
6 Cf. In re Alterra Healthcare Corp., 353 B.R. 66, 70 (2006)
(finding newspaper’s First Amendment, federal common law, and
statutory claims for access to several settlement agreements,
which had been filed under seal pursuant to orders of the
bankruptcy court, to be “a core proceeding over which the Court
has subject matter jurisdiction pursuant to 28 U.S.C. § 1334(b)
& 157(b)(2)(A)”); In re Bennett Funding Group, Inc., 226 B.R. 331,
332-33 (1998) (adjudicating newspaper’s First Amendment and
federal common law right of access to retainer agreement filed in
camera pursuant to core jurisdiction under 28 U.S.C. §§ 1334(b)
and 157(a), (b)(1) and (2)(A))).

101a

intervene in an extant case”). While the government
is correct insofar as the associated intelligence­
gathering authorizations granted by the FISC have
expired, the FISC has a continuing obligation to
maintain the records of those proceedings in accord
with Section 1803(c) and Rule 62(b). Moreover, that
obligation remains in place for those portions of the
requested opinions that are still classified and not
available to the public, notwithstanding the release
of other portions based on Executive Branch
declassification decisions.
In light of the above analysis and consistent with
this Court’s prior decisions,7 the Court will exercise
ancillary jurisdiction pursuant to Kokkonen’s second
prong and proceed to the merits.

•

7 See In re Mot. for Release of Court Records, 526 F. Supp. 2d
484, 487 (FISA Ct. 2007) (“In re Motion for Release of Court
Records 200T) (recognizing authority over court records and
concluding, “it would be quite odd if the FISC did not have
jurisdiction in the first instance to adjudicate a claim of right to
the court’s very own records and files”); In re Orders of Court
Interpreting Section 215 of Patriot Act, 2013 WL 5460064 (Sept.
13, 2013) (exercising subject matter jurisdiction over third party
claim for access to FISC records); and In re Mot. for Consent to
Disclosure of Court Records or, in the Alternative, Determination
of the Effect of Court’s Rules on Statutory Access Rights, 2013 WL
5460051 at *2 (June 12, 2013) (finding jurisdiction to adjudicate
a dispute over whether a FISC rule prohibited the government
from disclosing its copies of a FISC opinion pursuant to the
Freedom of Information Act (FOIA), 5 U.S.C. § 552).

102a

III.

THE FIRST AMENDMENT DOES NOT
PROVIDE A QUALIFIED RIGHT OF
PUBLIC ACCESS TO THE OPINIONS AT
ISSUE.

Movants and Amicus urge the Court to apply the
“experience-and-logic” test articulated in PressEnterprise II and find a First Amendment right of
public access to FISC opinions. Mot. for Release of Ct.
Records at 12; Reply Brief of Amicus Curiae (“Amicus
Reply Br.”) at 45—47.8
Under the First Amendment, . . . the
Supreme Court has applied what is
referred to as the experience-and-logic
test to determine whether there is a
constitutional right of access to
particular court records or proceedings.
That test entails asking whether the
record or proceeding in question has
“historically been open to the press and
general public,” and “whether public
access plays a significant positive role in
the functioning of the particular process
in question.”
In re Certification of Questions of Law to FISCR, 2018
WL 2709456 at *3 (quoting Press- Enterprise II, 478
U.S. at 8). If these questions are answered
affirmatively, then the First Amendment confers a
qualified right of public access, Press-Enterprise II,
478 U.S. at 8, which entails a “presumption of
openness [which] may be overcome only by an
overriding interest based on findings that closure is
8 Amicus also argues that the common law provides a public
right of access, see Amicus Reply Br. at 34-45; however, Movants
have asserted only a First Amendment claim.

103a

essential to preserve higher values and is narrowly
tailored to serve that interest,” Press-Enter. Co. v.
Super. Ct., 464 U.S. 501, 510 (1984) (“Press-Enterprise
F). Although the Supreme Court has never applied the
experience-and-logic test “outside the context of
criminal judicial proceedings or the transcripts of
such proceedings,” Ctr. for Nat’l Sec. Studies u. U.S.
Dep’t of Justice, 331 F.3d 918, 935 (D.C. Cir. 2003),
the FISCR’s opinion in In re Certification of Questions
of Law to FISCR indicates that it is applicable here.
A. The proper framing of the experienceand-logic test
How broadly or narrowly to apply the experienceand-logic test has sometimes been a vexing question,9
but the reasoning of the Supreme Court in Press Enterprise II provides guidance. The Supreme Court
observed that, “[although many governmental
processes operate best under public scrutiny, it takes
little imagination to recognize that there are some
kinds of government operations that would be totally
frustrated if conducted openly.” Press-Enterprise II,
478 U.S. at 8-9. This distinction makes it evident that
the experience-and-logic inquiry described in PressEnterprise II should be directed with sufficient
precision to appreciate the history and nature of the
particular type of proceeding or document in question.
See Times Mirror Co. v. United States, 873 F.2d 1210,
1213 (9th Cir. 1989) (“the Supreme Court has
9 See, e.g., Dhiab v. Trump, 852 F.3d 1087, 1104 (D.C. Cir. 2017)
(Press-Enterprise II did not explain “whether we look to broad or
narrow categories” and “the likely categories” in Dhiab “may
range among civil actions generally, habeas actions, habeas
actions relating to conditions of confinement, and finally habeas
actionsrelated to Guantanamo”) (Williams, J., concurring in part
and concurring in the judgment).

104a

implicitly recognized that the public has no [First
Amendment] right of access to a particular proceeding
without first establishing that the benefits of opening
the proceedings outweigh the costs to the public”).
FISC judges have applied the experience-and-logic
test with sufficient particularity to take into account
the distinctive characteristics of FISC proceedings.
See In re Motion for Release of Court Records 2007,
526 F. Supp. 2d 484, 492 (FISA Ct. 2007) (applying
“experience and logic” test to electronic surveillance
proceedings under 50 U.S.C. §§ 1804-1805); In re
Proceedings Required by § 702(i), 2008 WL 9487946
at *3-4 (FISA Ct. Aug. 27, 2008) (applying test to
records relating to FISC review of government’s
certification and procedures for acquisition of foreign
intelligence information under Section 702 of FISA,
codified at 50 U.S.C. § 1881a).i° The FISCR has also

10 In this regard, these FISC decisions align with those of
numerous other courts, which have applied the experience-andlogic test to the particular type of judicial proceeding or document
to which a First Amendment right of access has been asserted.
See, e.g., Press-Enterprise II, 478 U.S. at 10 (applied to
preliminary hearings of the type conducted in California criminal
proceedings); In re Morning Song Bird Food Litig., 831 F.3d 765,
777 (6th Cir. 2016) (applied to objections to presentence reports);
In re Application of the United States for an Order Pursuant to
18 U.S.C. §2703(d), 707 F.3d 283, 291-92 (4th Cir. 2013) (“In re
§2703(d) Application”) (applied to §2703(d) orders and
proceedings); In re Hearst Newspapers, LLC, 641 F.3d 168, 177—
80 (applied to sentencing proceedings); In re Application of the
New York Times Co. to Unseal Wiretap & Search Warrant
Materials) (“In re Application of New York Times”), 577 F .3d 401,
409-10 (2d Cir. 2009) (applied to Title III wiretap applications);
Wecht, 537 F.3d at 235-39 (applied to names of jurors and
prospective jurors in criminal trials); United States v. Corbitt,
879 F.2d 224, 228—36 (7th Cir. 1989) (applied to presentence
reports); Times Mirror Co., 873 F.2d at 1213-18 (applied to pre-

105a

endorsed this approach. See In re Certification of
Questions of Law to FISCR, 2018 WL 2709456 at* 1
(“The work of the FISC is different from that of other
courts in important ways that bear on the First
Amendment analysis.”).
One of the most distinctive characteristics of the
FISC’s review and disposition of FISA applications is
that, under the framework established by Congress,
such work is not open to the public. In addition to the
requirement that the FISC comply with security
measures adopted by the Chief Justice (see supra pp.
7—8), orders directing third parties to produce tangible
things in support of foreign intelligence investigations
must be entered ex parte and not disclose the nature
of the investigation for which they are issued. See 50
U.S.C. § 1861(c)(1), (2)(E). Recipients of such orders
are subject to nondisclosure requirements. 50 U.S.C.
§ 1861(d)(1). Petitions challenging such orders “shall
be filed under seal” and, when adjudicating such
petitions, the FISC “shall, upon request of the
Government, review ex parte and in camera any
government submission, or portions thereof, which
may include classified information.” 50 U.S.C. §
1861(f)(5); see also 50 U.S.C. § 1881a(l)(2) (equivalent
provision for FISC proceedings on petitions to
challenge or enforce directives under Section 702 of
FISA). FISC proceedings on applications to approve
installation and use of PR/TT devices and other forms
of intelligence collection also must be closed to the
public and any resulting orders that are served on
third parties are protected from further disclosure.11
indictment search warrant proceedings and materials).
11 PR/TT orders must be entered ex parte and provide that
persons directed to assist in installing or operating a PR/TT
device shall do so “in such a manner as will protect its secrecy”

106a

Finally, even the congressionally-mandated process
for release of FISC opinions that involve “a significant
construction or interpretation” of law, see 50 U.S.C. §
1872(a), does not presume openness. Rather, it
involves an Executive Branch declassification review
that results in public release of each such opinion “to
the greatest extent practicable,” “consistent with” the
results of that review, which may involve redaction of
sensitive information or release of a summary in
place of the opinion itself. § 1872(a), (b), (c) (emphasis
added). See also In re Certification of Questions of
Law to FISCR, 2018 WL 2709456 at *1 (the “legal
analysis” in FISC opinions “often contain[s] highly
sensitive information, the release of which could be
damaging to national security”).
The foregoing considerations instruct that the
FISC should apply the experience-and-logic test solely
in the context of this Court’s opinions relating to
foreign intelligence collection. Movants prefer a
broader perspective and argue that the Court should
apply the experience-and-logic test to judicial opinions
generally, or at least to such opinions that interpret
the “meaning and constitutionality of public statutes.”
Mot. for Release of Ct. Records at 13-17.12 But using
and “shall maintain, under security procedures approved by the
Attorney General and the Director of National Intelligence, any
records concerning the pen register or trap and trace device or
the aid furnished.” 50 U.S.C. § 1842(d)(1), (2)(B). Similar
provisions apply to FISC orders approving electronic
surveillance, see 50 U.S.C. § 1805(a), (c)(2)(B)-(C), physical
search, see 50 U.S.C. § 1824(a), (c)(2)(B)-(C), and certain
acquisitions targeting U.S. persons who are outside the United
States, see 50 U.S.C. §§ 1881b(c)(l), (5)(B)-(C) and 1881c(c)(l).
12 Amicus similarly argues that the inquiry should encompass
how judicial opinions “are treated based on the common law right
of access” and the history of public access to documents in other

107a

such a broad platform to evaluate experience and logic
would lose focus on the distinctive characteristics of
FISC opinions and proceedings described above.
Movants’ reasoning behind their proposal is not
persuasive. First, Movants assert that theexperience
inquiry “‘does not look to the particular practice of any
one jurisdiction, but instead to the experience in that
type or kind of hearing throughout the United
States.’” Id. at 13 (quoting El Vocero de P.R. v. Puerto
Rico, 508 U.S. 147, 150 (1993) (per curiam) (emphasis
in original); accord Amicus Reply Br. at 50. But the
FISC is not one forum among others similarly
situated: it has singular and national jurisdiction over
all FISA applications. See 50 U.S.C. §§ 1803(a)(1),
1822(c), 1842(b), 1861(b)(1), 188Ia(j)(l)(A), 1881b(a)(l),
1881c(a)(l). The FISC is the only forum that conducts
the relevant types of proceedings and issues the
relevant types of opinions.
Relatedly, Amicus argues that “‘[tjradition is not
meant... to be construed narrowly’” and the Court
should look “‘to analogous proceedings and documents
of the same type or kind.’” Amicus Reply Br. at 50—51
(quoting In re Boston Herald, Inc., 321 F.3d 174, 184
(1st Cir. 2003)). But in the decision relied upon, the
First Circuit also observed that “analogies” to other
procedural contexts must be “solid ones” that “serve
as reasonable proxies for the ‘favorable judgment of
experience’ concerning access to the actual documents
in question.” In re Boston Herald, 321 F.3d at 184
(quoting Press-Enterprise II, 478 U.S. at 8).
Accordingly, the First Circuit dismissed as “too broad”
courts—either other specialized Article III courts, e.g., the U.S.
Court for International Trade, or Article Ill courts generally. See
Amicus Reply Br. at 47-52.

108a

a proposed analogy between access to criminal trials
and access to documents submitted ex parte in support
of a defendant’s request for assistance with legal
expenses. 321 F.3d at 184. Similarly, the Fourth
Circuit in In re § 2703(d) Application rejected the
argument that a claimed right of public access to an
order under Section 2703(d) of Title 18 of the U.S.
Code could be founded on the “long history of access to
judicial opinions and orders,” because that
interpretation of the First Amendment was “too broad,
and directly contrary” to precedent “that this right
extends only to particular judicial records and
documents.” 707 F.3d at 291 n.8 (emphasis in original;
internal quotation marks omitted). This Court
concludes that public access to opinions issued in civil
and criminal proceedings in other courts does not bear
on the experience inquiry here due to the distinctive
nature of the underlying FISC proceedings.
Movants reason that the experience-and-logic test
should be more generously analyzed when “access to
a new forum” is at issue “[bjecause there will never be
a tradition of public access in new forums,” Mot. for
Release of Ct. Records at 14 (emphasis in original);
however, they do not explain why the FISC, which has
continuously entertained applications for approval of
foreign intelligence collection since 1979, should be
regarded as so new that it cannot have established its
own “history” regarding public access.13 In any case,
13 Cf. In re Application of New York Times, 577 F.3d at 410
(reviewing in 2009 how Title III wiretap applications have been
handled since Title Ill’s enactment in 1968 and concluding that
such applications “have not historically been open to the press
and general public,” notwithstanding claimant’s contention that
such applications “are merely judicial records that, like search
warrants or docket sheets, have been historically open to public
access”); In re Application of Leopold to Unseal Certain Electronic

109a

due to the FISC’s purported youth, Movants urge
reliance on a broader category of “judicial opinions
interpreting the meaning and constitutionality of
public statutes” to gauge experience and logic. See
id., citing New York Civil Liberties Union v. New York
City Transit Auth., 684 F.3d 286, 299 (2d Cir. 2012)
(“NYCLU”).14 But even if the FISC were “new,” its
singular caseload and statutory obligations require
the experience-and-logic to be applied in a more
focused and, necessarily, limited fashion. See In re
Surveillance Applications and Orders, 300 F. Supp. 3d 61, 87—88
(D.D.C. 2018) (describing as “doubtful” whether, over 31 years
after enactment of § 2703(d), orders issued thereunder “are of
such recent vintage” that the court should broaden the
experience inquiry to encompass whether search warrant
materials have historically been open to the public),
reconsideration denied, 327 F. Supp. 3d 1 (D.D.C. 2018), appeal
filed (D.C. Cir. Sept. 19, 2018).
14 Movants also cite In re Copley Press, Inc., 518 F.3d 1022 (9th
Cir. 2008). Mot. for Release of Ct. Records at 14. That decision
did not involve an expansive application of the experience-andlogic test in view of a “new forum.” Instead, it followed Ninth
Circuit precedent that satisfaction of the logic prong can be
sufficient to establish a qualified right of public access, even if
the experience prong is not satisfied. 518 F.3d at 1026—27
(relying on Phoenix Newspapers, Inc. v. U.S. Dist. Court, 156
F.3d 940, 948 (9th Cir. 1998) and Seattle Times Co. v. U.S. Dist.
Court, 845 F.2d 1513, 1516-17 (9th Cir. 1988)). Although the
Tenth Circuit agreed, see United States v. Gonzales, 150 F.3d
1246, 1258 (10th Cir. 1998), the weight of circuit authority
requires satisfaction of both prongs, see Sullo & Bobbitt, PLLC v.
Milner, 765 F.3d 388, 393-94 (5th Cir. 2014); In re Application
for § 2703(d) Order, 707 F.3d at 291; In re Search of Fair Finance,
692 F.3d 424, 429-31 (6th Cir. 2012); In re Application of New
York Times, 577 F.3d at 409-10; North Jersey Media Group, Inc.
v. Ashcroft, 308 F.3d 198, 213 (3d Cir. 2002); United States v. ElSayegh, 131 F.3d 158, 161 (D.C. Cir. 1997). The Court need not
address this dichotomy because it finds that neither experience
nor logic is satisfied in this case. See infra pp. 19—30.

110a

Boston Herald, 321 F.3d at 184 (even if the type of
proceeding at issue is of “relatively recent vintage,”
other types of proceedings can be relevant only if they
“serve as reasonable proxies for the favorable
judgment of experience concerning access to the actual
documents in question”) (internal quotation marks
omitted).
The Second Circuit’s decision in NYCLU does not
indicate otherwise. NYCLU involved a claimed First
Amendment right of public access to hearings before
the Transit Adjudication Bureau (TAB) concerning
alleged violations of public transit rules of conduct.
The TAB was an administrative body created to lessen
the burden of adjudicating such violations in criminal
court. 684 F.3d at 289—93. In applying the
experience-and-logic test, the Second
Circuit
considered the historical openness of such transit-rule
adjudications in criminal court, as well as the practices
of the TAB. Id at 300. It did so in part because the TAB
was new but more importantly because the TAB and
the criminal court were functionally equivalent, that
is, “[t]he process that goes on at TAB hearings is a
determination of whether a respondent has violated a
Transit Authority Rule. And that process was
presumptively open . . . when such proceedings were
heard only” in the criminal court. Id. at 301-02
(emphasis in original).
Finally, Movants warn that a narrow experience
inquiry “would permit Congress to circumvent the
constitutional right of access altogether—even as to,
say, criminal trials—simply by providing that such
trials henceforth be heard in a newly created forum.”
Mot. for Release of Ct. Records at 14. Their concern is
both hypothetical and probably unconstitutional. In
addition, it presupposes a prior right of public access
111a

which never existed. Before Congress established the
FISC, there were no judicial proceedings on
applications for approval of foreign intelligence
collection and Executive Branch documents and
deliberations regarding foreign intelligence collection
were hardly open to the public.
Accordingly, the Court will apply the experienceand-logic test to FISC opinions concerning requests
for approval of foreign intelligence collection; more
specifically, opinions issued by the FISC in: (1) ex
parte proceedings on government applications for
approval of particular forms of intelligence gathering,
see, e.g., 50 U.S.C. §§ 1804-1805 (electronic
surveillance), or involving reviews of certifications
and procedures respecting acquisition of foreign
intelligence information pursuant to § 1881a(j); (2) ex
parte proceedings on government requests to modify
orders previously issued in such proceedings; and (3)
adversarial proceedingsbetween the government and
a person directed to provide information or otherwise
assist in foreign intelligence collection, see, e.g.,
§1881a(i)(4)-(5) (proceedings on petitions to challenge
or enforce directives issued under § 1881a(i)(l)). The
following discussion refers to these types of
proceedings as “foreign intelligence proceedings.”
B. Application of the experience-andlogic test
For the reasons explained below, the Court
concludes that the asserted right of public access fails
under both the experience inquiry and the logic
inquiry.
1. Experience
The experience inquiry concerns “whether the
record or proceeding in question has ‘historically been
112a

open to the press and general public.’” In re
Certification of Questions of Law to FISCR, 2018 WL
2709456 at *3 (quoting Press-Enterprise II, 478 U.S.
at 8) (citation omitted).
For the first 30 years of the FISC’s existence, there
plainly was no history of openness respecting FISC
opinions. Prior to 2007, just two FISC opinions had
been publicly released.15 The opinion in In re Motion
for Release of Court Records 2007, 526 F. Supp. 2d
484, which was the third FISC opinion to be publicly
released, concerned an adversarial proceeding
initiated by a non-governmental party claiming a
First Amendment right of access to FISC records,
much like the current proceeding. In that matter, the
Court found no tradition of public access, even for
“cases presenting legal issues of broad significance,”
and described the FISC as “not a court whose place or
process [had] historically been open to the public.” Id.
at 493.
In contrast, Movants and Amicus point to the
considerably larger number of FISC opinions and
orders that have been made public since In re Motion
for Release of Court Records 2007. See Movants’ Br.
at 17; Amicus Reply Br. at 49-50. According to the
catalog of publiclyavailable FISC and FISCR opinions
compiled by Amicus, see Amicus Appendix at Tab A,
In re Certification of Questions of Law to FISCR, 2018
15 See In re Motion for Release of Court Records 2007, 526 F.
Supp. 2d at 488 n.13 (referencing prior releases of In re All
Matters Submitted to FISC, 218 F. Supp. 2d 611 (FISA Ct. 2002),
rev’d sub nom. In re Sealed Case, 310 F.3d 717 (FISA Ct. Rev.
2002), and In re Application of the United States for an Order
Authorizing the Physical Search of Nonresidential Premises and
Personal Property (FISA Ct. June 11, 1981), reprinted in S. Rep.
97-280 at 16-19 (1981)).

113a

WL 2709456 (No. 18-01) (“Amicus Appendix”), 54
FISC opinions have been released since the issuance
of that opinion, certainly a notable increase.
Nevertheless, the relatively recent public accessibility
of a greater number of FISC opinions falls far short of
establishing that opinions issued by the FISC in
foreign intelligence proceedings have ‘“historically
been open to the press and general public.”’ See In re
Certification of Questions of Law to FISCR, 2018 WL
2709456 at *3 (quoting Press-Enterprise II, 478 U.S.
at 8).
First, six of the 54 opinions cited by Amicus are
inapposite because they were issued in unclassified
adversarial proceedings arising from third parties’
claims for relief, not in foreign intelligence
proceedings.16 The release of those six opinions is no
more relevant to the experience inquiry in this case
than, for example, the public accessibility of federal
district court opinions issued in civil litigation.
The large majority of the remaining 48 opinions
was made available by the Executive Branch
beginning in 2013, after then-President Barack
16 Two of those opinions, In re Opinions & Orders of Court
Addressing Bulk Collection of Data under FISA, 2017 WL
5983865 (FISA Ct. Nov. 9, 2017), and In re Opinions & Orders of
Court Addressing Bulk Collection of Data under FISA, 2017 WL
427591 (FISA Ct. Jan. 25, 2017), were issued in this very case.
The other four are: In re Proceedings Required by Section 702(i)
of FISA Amendments Act of 2008, 2008 WL 9487946 (FISA Ct.
Aug. 27, 2008); In re Motion for Consent to Disclosure of Court
Records or, in the Alternative, a Determination of the Effect of the
Court’s Rules on Statutory Access Rights, 2013 WL 5460051
(FISA Ct. June 12, 2013); In re Orders of this Court Interpreting
Section 215 of the Patriot Act, 2013 WL 5460064 (FISA Ct. Sept.
13, 2013); and in re Orders of this Court Interpreting Section 215
of the Patriot Act, 2014 WL 5442058 (FISA Ct. Aug.7, 2014).

114a

Obama directed the Director of National Intelligence
(DNI) to “declassify and make public as much
information as possible about certain sensitive
programs while being mindful of the need to protect
sensitive classified intelligence and national security.”
See Press Release, Shawn Turner, Director of Public
Affairs, Office of the DNI, DNI Declassifies
Intelligence Community Documents Regarding
Collection under Section 702 of the Foreign
Intelligence Surveillance Act (FISA) (August 21,
2013),
https://www.odni.gov/index.php/newsroom/
press-releases/press-releases-2013/item/915-dnideclassifies-intelligence-community-documentsregarding-collection-under-section-702-of-the-foreignintelligence-surveillance-act-fisa. During 2013 and
2014, the Executive Branch released eleven FISC
opinions that had been issued in foreign intelligence
proceedings.17 In comparison, during the same period,
17 Id. (providing links to three FISC opinions); Press Release,
James R. Clapper, Director of National Intelligence, DNI Clapper
Declassifies Intelligence Community Documents Regarding
Collection under Section 501 of the Foreign Intelligence
Surveillance
Act
(FISA)
(Sept. 10,
2013),
https://www.dni.gov/index.php/newsroom/press-releases/pressreleases-2013/item/927-dni-clapper-declassifiesintelligencecommunity-documents-regarding-collection-under-section-501of-the-foreign-intelligence-surveillanceact-fisa (providing links
to two FISC opinions); Press Release, James R. Clapper, Director
of National Intelligence, DNI Clapper Declassifies Additional
Intelligence Community Documents Regarding Collection under
FISA
(Nov. 18,
2013),
Section
501
of
https://www.dni.gov/index.php/ newsroom/press-releases/pressreleases-2013/item/964-dni-clapper-declassifies-additionalintelligence-community-documents-regarding-collection-undersection-501-of-the-foreignintelligence-surveillance-act
(providing links to Opinion and Order, [Redacted], No. PR/TT
[Redacted] (Kollar-Kotelly, J.) and Memorandum Opinion,
[Redacted], No. PR/IT [Redacted] (Bates, J), two of the four

115a

the FISC itself released seven opinions issued in
foreign intelligence proceedings, five of them in
redacted form after declassification review by the
Executive Branch.18

opinions at issue in this matter); Statement by the ODNIand U.S.
Department of Justice on the Declassification of Documents
Related to the Protect America Act Litigation (Sept. 11, 2014),
https://www.dni.gov/index.php/newsroom/press-releases/ pressreleases-2014/item/1109-statement-by-the-odniand%C2%AD%20the-u-s-doj-on-the-declassification-ofdocuments-related-to-the-protect-america-act-litigation
(providing links to two FISC opinions); and DOJ Releases
Additional Documents Concerning Collection Activities
Authorized By President George W Bush Shortly After The
Attacks
Of September
11,
2001
(Dec.
12,
2014),
https://www.dni.gov/index.php/newsroom/press-releases/pressreleases-2014/item/1152-the-doj-releases-additional-documentsconceming-collection-activities-authorized-by-president-georgew-bush-shortly-after-the-attacks-of-september-11-2001
(providing link to one 2007 FISC Opinion).
An eleventh opinion, Order and Memorandum Opinion, In re
[Redacted], No. [Redacted], (FISA Ct. Aug. 2, 2007) was released
by the Department of Justice in December 2014 to a FOIA
requester. See Amicus Appendix, Entry 50.
18 In re Application of FBI, 2013 WL 9838183 (FISA Ct. Feb. 19,
2013); In re Application of FBI for Order Requiring Prod, of
Tangible Things, 2013 WL 5741573 (FISA Ct. Aug. 29, 2013);
Memorandum Opinion, In re Application of FB for Order
Requiring Prod, of Tangible Things, No. BR 13-158 (FISA Ct.
Oct. 11, 2013) (McLaughlin, J.); Opinion and Order, In re
Application of FBI for Order Requiring Production of Tangible
Things, No. BR 14-01 (FISA Ct. March 7, 2014) (Walton, J.),
available at https://fisc.uscourts.gov/sites/ default/files/BR%2014
-01%200pinion-l.pdf; Opinion and Order, In re Application of
FBI for Order Requiring Production of Tangible Things, No. BR
14-01 (FISA Ct. March 12, 2014) (Walton, J.), available at
https://fisc.uscourts.gov/sites/default/files/BR%2014-01%20
Opinion-2.pdf; In re Application of FBI, 2014 WL 5463097 (FISA
Ct. March 20. 2014); In re Application of FBI, 2014 WL 5463290

116a

In June 2015, Congress amended FISA to mandate
an Executive Branch declassification review of
significant FISC opinions. USA FREEDOM Act §
402(a)(2), 129 Stat. 281 (codified at 50 U.S.C. §
1872(a)); see also supra p. 14 and infra pp. 28-29.
Since that provision came into effect on June 2, 2015,
28 opinions issued by the FISC in foreign intelligence
proceedings have been released, see Amicus Appendix,
Entries 2, 5-12, 19, 20, 22, 25, 30, 33-37, 40-42, 44,
and 56—60, only three of them by the FISC. See id.,
Entries 6, 8, and 10. Since the compilation of the
Amicus
Appendix,
Professor
Donohue,
in
collaboration with the Georgetown University Edward
Bennett Williams Law Library, has made publicly
available a collection of resources on foreign
intelligence law, including publicly released FISC
opinions.19 Those materials include an additional nine
FISC opinions from foreign intelligence proceedings
that have been released by the Executive Branch in
redacted form, consistent with its classification
determinations, since the submission of the Amicus
Appendix.20 Combined with those described in the
(FISA Ct. June 19, 2014).
The FISCR released an eighth FISC opinion, Memorandum
Opinion, In re Directives [Redacted] Pursuant to Section 105B of
FISA, No. 105B(g): 07-01 (FISA Ct. Apr. 25, 2008), in redacted
form following declassificationreview by the Executive Branch as
part of its record in In re Directives [Redacted] Pursuant to
Section 105B of FISA, 551 F.3d 1005 (FISA Ct. Rev. 2008).
19 See https://repository.library.georgetown.edu/handle/10822/
1052698.
20 Memorandum Opinion and Order, [Redacted], (FISA Ct.
Sept. 4, 2019), available at https://repository. library.
georgetown.edu/bitstream/handle/10822/1056862/gid_c_00259-p
df?sequence=l&isAllowed=y; Memorandum Opinion and Order,
[Redacted], (FISA Ct. Oct. 18, 2018), available at

117a

Amicus Appendix (including two opinions released
prior to 2007, see supra p. 19), that makes for 58
opinions FISC opinions issued in foreign intelligence
proceedings that have been publicly released.
The circumstances of the vast majority of those
releases are actually a testament to theFISC’s history
of closure with regard to such opinions. For the entire
history of the FISC, Amicus has cited only twelve
opinions issued in foreign intelligence proceedings
published by the FISC itself. See Amicus Appendix,

https://repository.library.georgetown.edu/bitstream/handle/1082
2/1056860/gid_c_00258.pdf?sequence=l&isallowed=y;
Supplemental Opinion and Accompanying Primary Order,
[Redacted], (FISA Ct. Dec. 18, 2008), available at
https://repository.library.georgetown.edu/bitstream/handle/10822
Order
/1052763/gid_c_00034.pdf?sequence=3&isAllowed=y;
Authorizing Electronic Surveillance and Accompanying Opinion,
[Redacted], (FISA Ct. [date redacted]), (Davis, J.), available at
http s ://repo sitory. library.
georgetown.edu/bitstream/handle/10822/1052779/gid_c_00153.p
Opinion,
Memorandum
df?sequence=3&isAllowed::=y;
[Redacted], (FISA Ct. [date redacted], (Feldman, J.), available at
https://repository.library.georgetown.edu/bitstream/handle/
10822/1052784/gid_c_00139.pdf?sequence=3&isAllowed=y;
Opinion, [Redacted], (FISA Ct. [date redacted]), (Kollar-Kotelly,
https://repository.library.
at
available
J-),
georgetown.edu/bitstream/handle/10822/1052986/gid_c_00159.p
df?sequence=3&isAllowed=y; Opinion and Order, [Redacted],
(FISA Ct. [date redacted], (Gorton, J.), available at
https://repository.library.georgetown.edu/bitstream/handle
/10822/1052989/gid_c_00155.pdf?sequence=2&isAllowed=y;
Opinion and Order, [Redacted], (FISA Ct. [date redacted]
at
https://repository.library.
available
(Hogan,
J-),
georgetown.edu/bitstream/handle/10822/1053863/gid_c_00254.p
df?sequence=l&isAllowed=y; Opinion and Order, [Redacted],
(FISA Ct. [date redacted] (Hogan, J.), available at
https://repository.library.georgetown.edu/bitstream/handle/1082
2/1052785/gid_c_00138.pdf?sequence=3&isAllowed=y.

118a

Entries 6, 8, 10, 14, 15, 16, 17, 18, 23, 26, 28, and 54.21
Each of those opinions was made public in a form
consistent with an Executive Branch declassification
review, unless the opinion did not contain any
classified information in the first instance.22 The
release of those few opinions in redacted form does not
show a history of openness, supporting a First
Amendment right of access.23
Finally, it weighs heavily against the asserted
history of openness that of the 59 FISC opinions
discussed above, only two were released between the
Court’s inception in 1979 and August 2013. See supra
pp. 19-21. History is the past considered as a whole,
not just the most recent developments. Cf. North
Jersey Media Group, 308 F.3d at 211 (“the tradition
21 Two of the twelve opinions are responsive to Movants’ claim.
See Amicus Appendix, Entries 23 and 26, referencing
Memorandum Opinion, In re Application of FBI for Order
Requiring Prod, of Tangible Things, No. BR 13-158 (FISA Ct.
Oct. 11, 2013) and In re Application of FBI for Order Requiring
Prod, of Tangible Things, 2013 WL 5741573, respectively.
22 On December 17, 2019, the FISC published an order which
included a discussion of the government’s duty of candor in
proceedings under Title I of FISA. See Order, In re Accuracy
Concerns Regarding FBI Matters Submitted to the FISC, No.
Misc. 19-02 (FISA Ct. Dec. 17, 2019). That order did not require
a declassification review because it did not contain classified
information in the first instance.
23 Amicus also identified 113 FISC orders that have been
released to the public. See Amicus Appendix at Tab B. That
number is unpersuasive in the context of the thousands of orders
issued by the FISC during its history that have not been publicly
released. See, e.g., Report of Director of Admin. Office of U.S.
Courts on Activities of Foreign Intelligence Surveillance Courts
for 2015, 2016, 2017 and 2018, https://www.uscourts.gov/
statistics-reports/analysis-reports/directors-report-foreignintelligence - surveillance -courts.

119a

of open deportation hearings is too recent and
inconsistent to support a First Amendment right of
access”).
Notably, FISC opinions that contained classified
information have been released only after a review
and redaction by the Executive Branch. Movants seek
access to redacted classified information in opinions
they have already received. Since such classified
information has never been released by the FISC, in
that regard there is no relevant experience.
2. Logic
The logic inquiry concerns ‘“whether public access
plays a significant positive role in the functioning of
the particular process in question.’” In re Certification
of Questions of Law to FISCR, 2018 WL 2709456 at *3
(quoting Press-Enterprise II, 478 U.S. at 8; citation
omitted). In making that determination, a court
balances the benefits of public openness against any
harms, see, e.g., In re Search of Fair Finance, 692
F.3d at 431-42; In re Boston Herald, Inc., 321 F.3d
at 186-88; United States v. Gonzales, 150 F.3d at
1259-60, including, when applicable, harm to national
security, see North Jersey Media Group, 308 F.3d at
217.
Movants contend that access to FISC opinions will
be beneficial in two particular ways: (1) public
knowledge of the law is necessary for democratic
governance, especially with regard to Executive
Branch conduct that implicates constitutional rights,
see Mot. for Release of Ct. Records at 16; and (2) access
to FISC opinions specifically will promote public
confidence in theFISC and the FISA process, enable
“more refined decisionmaking in future cases,”
contribute to the decisionmaking of other courts, and

120a

“improve democratic oversight,” see id. at 17-20.
These are benefits that might plausibly accrue from
public access to FISC opinions, just as they generally
accrue from public access to other types of judicial
opinions. But as with the experience inquiry, the
proper focus of the logic inquiry must be on “‘the
functioning of the particular process in question.’” In
re Certification of Questions of Law to FISCR, 2018
WL 2709456 at *3 (quoting Press-Enterprise II, 478
U.S. at 8; citation omitted); see supra pp. 12-18.
“‘[T]he value of access must be measured in specifics,”’
In re Search of Fair Finance, 692 F.3d at 433 (quoting
Richmond Newspapers, Inc. v. Virginia, 448 U.S. 555,
589 (1980) (Brennan, J
concurring in the
judgment),24 and specific harms to the proceeding at
issue outweigh generic assertions about the benefits
of openness:
[“] Every judicial proceeding, indeed
every governmental process, arguably
benefits from public scrutiny to some
degree, in that openness leads to a
better-informed citizenry and tends to
deter government officials from abusing
the powers of government.” Yet, “because
the integrity and independence” of
proceedings such as the grand jury, jury
deliberations,
and
the
internal
communications of the court “are
24 The quoted passage from Justice Brennan’s opinion
continues: “Analysis is not advanced by rhetorical statements
that all information bears upon public issues; what is crucial in
individual cases is whether access to a particular government
process is important in terms of that very process.” Richmond
Newspapers, 448 U.S. at 589 (Brennan, J., concurring in
judgment).

121a

threatened by public disclosures, claims
of ‘improved self-governance’ and ‘the
promotion of fairness’ cannot be used as
an incantation to open these proceedings
to the public.”
United States v. Gonzales, 150 F.3d at 1260 (quoting
Times Mirror Co., 873 F.2d at 1213; internal
citations omitted); accord In re Search of Fair
Finance, 692 F.3d at 432-33 (finding that the general
benefits of “assuring] that established procedures
are being followed,” promoting “the appearance of
fairness,” and providing “a check on . . . magistrate
judges” were “outweighed by the very particular
harms” to the “criminal investigatory process” that
would result from publication of search warrant
documents). But see In re Search Warrant for
Secretarial Area, 855 F.2d 569, 572-74 (8th Cir.
1988) (First Amendment confers qualified right of
public access to search warrant documents).
In In re Motion for Release of Court Records 2007,
which involved an asserted First Amendment right of
access to FISC electronic surveillance orders and
related pleadings, the Court found that “the
detrimental consequences of broad public access to
FISC proceedings orrecords would greatly outweigh”
any benefits. 526 F. Supp. 2d at 494. Those
detrimental consequences included the identification
of “methods of surveillance,” which “would permit
adversaries” to “conceal their activities;” disclosures of
“confidential sources of information,” which “would
chill current and potential sources from providing
information” and “might put some in personal
jeopardy;” and disclosures of intelligence gathering
that could harm national security in other ways, “such
as damaging relations with foreign governments.” Id.

122a

As here, the ACLU in In re Motion for Release of
Court Records 2007 sought access to “only those
portions of the requested materials that the Court
finds are not properly classified.” Id. at 495. In that
case, the Court found that the logic test would not be
satisfied even if it were applied to “only those parts of
the requested materials that the Court, after
independent review, . . . determined need not be
withheld.” Id.25 The Court noted that its review
“might err by releasinginformation that in fact should
remain classified,” and thereby damage the national
security. 526 F. Supp. 2d at 495. Moreover, “the FISA
process would be adversely affected if submitting
sensitive information to the FISC could subject the
Executive Branch’s classification to a heightened form
of judicial review”26 because the “greater risk of
25 The Court also expressed doubt “that the logic test should be
so narrowly applied.” Id. at 495 & n.29 (internal quotation marks
omitted). Indeed, it is doubtful that a decision to release discrete
information within a document could shed any light on whether
general public access to other documents of the same type would
benefit the particular process at issue. See Globe Newspaper Co.,
868 F.2d at 509-10 (“the fact that in certain cases access to the
[requested] records may not be detrimental to the functioning” of
the process in question, “and perhaps may even be beneficial to
it, ... is not sufficient reason to create a presumption in favor of
openness”) (emphasis omitted).
26 The ACLU had argued that the FISC should review
Executive Branch classification decisions in a “probing manner”
that is less deferential than the review of record releases under
FOIA. 526 F. Supp. 2d at 491 & n.18. The ACLU and other
Movants advocate for the same rigorous review by the FISC in
this case. See Mot. for Release of Ct. Records at 25 (“Independent
judicial review of any proposed redactions ... is necessary
because the standards that justify classification do not always
satisfy the strict constitutional standard and . . . executivebranch decisions cannot substitute for the judicial determination
required by the First Amendment.”).

123a

declassification and disclosure over Executive Branch
objections would chill the government’s interaction
with the Court.” 526 F. Supp. 2d at 496. The Court
anticipated three deleterious consequences of that
chilling effect: (1) it “could damage national security
interests if, for example, the government opted to
forgo surveillance or search of legitimate targets in
order to retain control of sensitive information that a
FISA application would contain;” (2) it might create
“an incentive for government officials to avoid judicial
review” by conducting surveillance without FISC
approval “where the need for such approval is
unclear;” and (3) it could threaten “the free flow of
information to the FISC that is needed for an ex parte
proceeding to result in sound decisionmaking and
effective oversight.” Id.
The same anticipated harms preclude finding that
the logic test is satisfied in this case. First, the fact
that Movants seek access only to FISC opinions and
not applications or other related documents does not
abate the harms or distinguish In re Motion for
Release of Court Records 2007. Given the extent to
which sensitive information about subjects such as
ongoing counterintelligence and counterterrorism
investigations and means of technical collection
appears in opinions issued by the FISC in foreign
intelligence proceedings, the Court finds that the
above-described harms can be anticipated from public
access to such opinions.
Moreover, Movants have not demonstrated any
error in the assessment of harms in In re Motion for
Release of Court Records 2007. They have merely
asserted without explanation that “the Court erred in
concluding that public access would ‘result in a
diminished flow of information, to the detriment of the
124a

process in question.’” Mot. for Release of Ct. Records
at 21 (quoting In re Motion for Release of Court Records
2007, 526 F. Supp. 2d at 496). But courts have found
that public access to various types of proceedings and
documents could impede the receipt of relevant
information, including search warrant documents,27
presentence reports and objections thereto,28 and
transcripts and materials respecting criminal
defendants’ requests for assistance with legal
expenses.29 In addition, it is not unreasonable to be
concerned that a FISC judge “might err by releasing
information that in fact should remain classified,”
thereby damaging national security. 526 F. Supp. 2d
at 495. The FISCR has similarly recognized that the
FISC “is not well equipped to make the sometimes
difficult determinations as to whether portions of its
orders may be released without posing a risk to
national
security
or
compromising
ongoing
27 See, e.g., In re Search of Fair Finance, 692 F.3d at 432
(“[Pjublic access to search warrant documents” would cause the
government “to be more selective in the information it disclosed
in order to preserve the integrity of its investigations. This
limitation on the flow of information to the magistrate judges
could impede their ability to accurately determine probable
cause.”).
28 See, e.g., In re Morning Song Bird Food Litig., 831 F.3d at
776 (disclosure “would tend to restrict the sentencing court’s
access to relevant knowledge by discouraging the transmission of
information by defendants andcooperating third parties”).
29 In re Boston Herald, 321 F.3d at 188 (“specter of
disclosure . . . might lead defendants (or other sources called
upon by the court) to withhold information”); In re Gonzales, 150
F.3d at 1259 (without “assurance that the information
revealed . . . will not be disclosed, a defendant and his or her
counsel would be discouraged” from full disclosure of information
to the court).

125a

investigations.” In re Certification of Questions of Law
to FISCR, 2018 WL 2709456 at *1. The logic inquiry
requires a balancing of the benefits of openness
against any concomitant harms, see supra p. 24, and
the risk of harming national security through
disclosure of sensitiveinformation must be weighed in
striking that balance.
Finally, Movants assert that Congress’ decision in
2015 to establish an Executive Branch process to
declassify and release significant FISC opinions, see
USA FREEDOM Act of 2015 § 402(a)(2) (codified at 50
U.S.C. § 1872(a)), reinforces their arguments
regarding the logic inquiry. Movants’ Br. at 18. The
Court disagrees. The key figure in the statutory
process is the DNI who, unlike FISC judges, is
particularly well situated to decide what information
must be withheld to protect national security and
what information is safe to release.30 The DNI, in
consultation with the Attorney General, must
“conduct a declassification review” of FISC opinions
that include “a significant construction or
interpretation of any provision of law.” 50 U.S.C. §
1872(a). Congress did not prescribe standards to apply
in such review. Instead, it left Executive Branch
classification standards in place and required that the
opinions be made public “to the greatest extent
practicable,” “consistent with” the review’s results. Id.
(emphasis added). Important to the issues presented
here, the statute specifically permits the DNI, in
30 Cf. Central Intelligence Agency v. Sims, 471 U.S. 159, 180
(1985) (“[I] t is the responsibility of the Director of Central
Intelligence, not that of the judiciary, to weigh the variety of
complex and subtle factors in determining whether disclosure of
information may lead to an unacceptable risk of compromising
the Agency’ sintelligence-gathering process.”).

126a

consultation with the Attorney General, to waive the
publication requirement if doing so “is necessary to
protect the national security of the United States or
properly classified intelligence sources or methods,”
provided that an unclassified summary of the FISC’s
legal interpretation is prepared and published. 50
U.S.C. § 1872(c).
Movants advocate for a wholly different process in
which the Court would independently apply criteria
for withholding information that are more limited
than those in the Executive Branch classification
standards. See Mot. for Release of Ct. Records at 25.
The Court’s declination of that function is entirely
congruent with 50 U.S.C. § 1872. To be sure, Section
1872 reflects a legislative judgment that public access
to significant FISC opinions is desirable, but only
when the DNI is satisfied that sensitive national
security information is sufficiently protected. In fact,
the provisions of Section 1872 contradict Movants’
argument that the benefits of open access to such
opinions outweigh the harms as a general matter. See
Globe Newspaper Co., 868 F.2d at 509 (“The First
Amendment right of access attaches only to those
governmental processes that as a general matter
benefit from openness.”) (emphasis in original).
This Court concludes that “public access” to FISC
opinions in foreign intelligence proceedings does not
and would not play a “significant positive role in the
functioning” of the FISC, In re Certification of
Questions of Law to FISCR, 2018 WL 2709456 at *3,
particularlywith regard to classified information that
the Executive Branch would protect. Logic dictates
otherwise.

127a

IV.

THE COURT WILL NOT ORDER
FURTHER REVIEW AS A MATTER OF
DISCRETION.
FISC Rule 62(a) states:
The Judge who authored an order,
opinion, or other decision may sua sponte
or onmotion by a party request that it be
published. Upon such request, the
Presiding Judge, after consulting with
other Judges of the Court, may direct
that an order, opinion or other decision
be published. Before publication, the
Court may, as appropriate, direct the
Executive Branch to review the order,
opinion, or other decision and redact it as
necessary to ensure that properly
classified information is appropriately
protected pursuant to Executive Order
13526 (or its successor).

FISA Ct. R. Proc. 62(a) (emphasis in original).
Movants assert that, “even if the Court holds thatthe
First Amendment right of access does not attach . . .,
it should nonetheless exercise its discretion—as it has
in the past and in the public interest—to order the
government to conduct a declassification review of its
opinions pursuant to Rule 62.” Mot. for Release of Ct.
Records at 27. In support of that assertion, Movants
cite an earlier instance in which the Court, as “an
exercise of discretion,” directed the government to
submit proposed redactions of any opinion atissue so
that its author, “with the benefit of [such proposal],
may decide whether to propose publication pursuant
to Rule 62(a).” Id. (quoting In re Orders of Court
Interpreting Section 215 of Patriot Act, 2013 WL
54600644 at *8).
128a

The cited case, however, presented materially
different circumstances. Here, the Executive Branch
has completed a declassification review of the opinions
at issue. Consistent with that review, the opinions
have been made available to the public in redacted
form31 and there is no particular reason to expect that
further review will yield different results. Under the
circumstances presented, the Court declines to direct
a second declassification review.
V.

CONCLUSION.

For the foregoing reasons, the Court will dismiss
the pending Motion for the Release of Court Records.
A separate order accompanies this Opinion.
February 11, 2020
/s/ Rosemary M. Collyer
Judge, U.S. Foreign Intelligence
Surveillance Court

31 Indeed, the FISC has previously engaged in the Rule 62(a)
publication process for two of the four opinions at issue. See supra
p.2.

129a

